         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report


       EPA’s Oversight of the
       Vehicle Inspection and Maintenance
       Program Needs Improvement
       Report No. 2007-P-00001

       October 5, 2006
Report Contributors:                        Rick Beusse
                                            John Bishop
                                            Michelle Brown
                                            David Cofer
                                            Dan Howard
                                            Tiffine Johnson-Davis
                                            Patrick Milligan
                                            Bill Nelson




Abbreviations:

CAA                      Clean Air Act
CO                       carbon monoxide
EPA                      U.S. Environmental Protection Agency
FACA                     Federal Advisory Committee Act
FTE                      Full-Time Equivalent
HC                       hydrocarbons
I/M                      Inspection and Maintenance
MDE                      Maryland Department of the Environment
NOx                      nitrogen oxides
OBD                      On-Board Diagnostics
OIG                      Office of Inspector General
OTAQ                     Office of Transportation and Air Quality
OTR                      Ozone Transport Region
ppm                      parts per million
SIPs                     State Implementation Plans
STAPPA/ALAPCO            State and Territorial Air Pollution Program Administrators/
                           Association of Local Air Pollution Control Officials
VA DEQ                   Virginia Department of Environmental Quality
VINs                     Vehicle Identification Numbers




Cover photo:     Emissions from cars and trucks cause significant air pollution
                 (photos courtesy EPA).
                       U.S. Environmental Protection Agency                                         2007-P-00001

                       Office of Inspector General                                                 October 5, 2006




                       At a Glance

                                                                         Catalyst for Improving the Environment

Why We Did This Review            EPA’s Oversight of the Vehicle Inspection and
We conducted this review to       Maintenance Program Needs Improvement
determine whether selected
Inspection and Maintenance         What We Found
(I/M) programs have been
effective in identifying poorly   Properly implemented, I/M programs ensure that poorly performing vehicles are
performing vehicles, ensuring     identified and timely repaired. These programs represent a key component of
they are adequately repaired,     the pollution control strategies for major urban areas. Although States in
and achieving emissions           Region 3, where we focused our review, have achieved substantial emissions
reductions. We also assessed      reductions from vehicles, EPA has not ensured that States have fully met their
whether EPA oversight has         I/M program commitments. Four of 5 I/M programs in Region 3 reported
ensured that I/M programs are     substantial percentages of vehicles with no known final outcome, ranging from
achieving program goals in a      12 to 22 percent of vehicles that failed their I/M inspection. The fifth program
timely manner.
                                  did not report this measure to EPA and, since September 2005, has used a less
Background                        stringent testing procedure than required. Our in-depth work in one State
                                  showed that 12 percent of failing vehicles were not resolved after a year, and
About 237 million vehicles        that 5 percent were still not resolved after 21 months. Because State I/M
were registered in the United     programs generally do not have access to each others’ databases, they have been
States in 2004. On-road           unable to verify the outcome of many vehicles that failed their I/M tests.
mobile source emissions
account for from 29 to            Our nationwide survey of all 10 EPA regions covering 34 I/M programs, as well
51 percent of three key           as our detailed work in Region 3, indicate that EPA has not been obtaining
pollutants in our nation's air,   sufficient information to ensure that States are meeting their I/M program
and even more in major urban
                                  commitments. In the last 5 years (1999-2004), 11 of the 34 I/M programs
areas. In the 1990 Clean Air
Act Amendments, Congress          submitted timely reports, 14 programs had either never submitted the required
outlined a four-point strategy    reports or the regions were unsure whether the reports were submitted, and
to reduce emissions from          4 programs submitted reports but they were not timely (typically 1-2 years late
mobile sources, including the     in the Region we examined). The remaining five programs had mixed results
vehicle I/M program. If not       (some reports from these programs were submitted timely but some reports were
properly maintained, even         not received). Also, EPA regions only audited/evaluated 9 of the 34 I/M
newer vehicles will not           programs, and EPA reduced resources for overseeing and assisting I/M
perform as designed, causing      programs. As a result, EPA does not have reasonable assurance that emission
them to work harder, wear out     reductions claimed by some I/M programs have been achieved.
faster, and pollute more.
                                   What We Recommend
For further information,
contact our Office of             We recommend that EPA obtain and evaluate all required I/M reports to ensure
Congressional and Public
                                  that the programs are operating effectively, and follow up with States on
Liaison at (202) 566-2391.
                                  significant issues identified. We also recommend that EPA provide more
To view the full report,          technical assistance and guidance to States, and work with State I/M programs
click on the following link:      to follow up on vehicles with no known final outcome to a degree proportional
www.epa.gov/oig/reports/2007/     to the problem. EPA generally concurred with our recommendations.
20061005-2007-P-00001.pdf
                             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C. 20460


                                                                                                OFFICE OF
                                                                                           INSPECTOR GENERAL


                                                October 5, 2006

MEMORANDUM

SUBJECT:           EPA’s Oversight of the Vehicle Inspection and Maintenance Program
                   Needs Improvement
                   Report No. 2007-P-00001

TO:                William L. Wehrum
                   Acting Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $962,231.1

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0847
or roderick.bill@epa.gov; or Rick Beusse, Director for Program Evaluation, Air Issues, at
(919) 541-5747 or beusse.rick@epa.gov.

                                                                Sincerely,



                                                                Bill A. Roderick
                                                                Acting Inspector General



1
    The cost of this report was updated on November 29, 2006.
             EPA’s Oversight of the Vehicle Inspection and Maintenance Program 

                                     Needs Improvement 





                                Table of Contents 


Chapters

 1	   Introduction ...........................................................................................................      1

              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       1         

              Scope and Methodology.................................................................................                7


 2	   Some I/M Programs Need to Better Identify and 

      Ensure Repair of Vehicles with Excess Emissions ...........................................                                   9

              Less Stringent Emission Tests Used in One I/M Program .............................                                   9

              Improvements Needed to Ensure Failed Vehicles Repaired Effectively ........                                          10 

              Data Ensuring Effectiveness of Selected State I/M Programs Lacking ..........                                        21

              Significant Issues Identified in District of Columbia Annual Report ................                                 22 

              Challenges in Determining Final Outcome of Failing Vehicles.......................                                   23 

              States Have Made Efforts to Increase Effectiveness of Repairs ....................                                   25 

              Conclusions ....................................................................................................     25         

              Recommendations .........................................................................................            26         

              Agency Comments and OIG Evaluation.........................................................                          27 


 3	   Increased EPA Oversight and Technical Assistance Needed 

      for Vehicle I/M Programs ......................................................................................              28     

              Survey of EPA Regions Suggests Limited Oversight of I/M Programs ..........                                          28 

              Mixed Results in Obtaining Annual Reports ...................................................                        29 

              Some Regions Did Not Perform Audits/Evaluations or Assess 

                 Data Completeness of Vehicle I/M Programs............................................                             31 

              Decreased Level of Technical Assistance and Support .................................                                32 

              EPA Reduced Resources for I/M Oversight ...................................................                          33 

              Conclusions ....................................................................................................     34         

              Recommendations .........................................................................................            34         

              Agency Comments and OIG Evaluation.........................................................                          35 


 Status of Recommendations and Potential Monetary Benefits.................................                                        36     




                                                        -continued-
            EPA’s Oversight of the Vehicle Inspection and Maintenance Program 

                                    Needs Improvement 





                                              Table of Contents
                                                       (continued)



Appendices
 A   Details on Scope and Methodology.....................................................................                       38     


 B   Human Health and Environmental Impacts of Vehicle Emissions ...................                                             42     


 C   States/Areas that Operated I/M Programs in 2005 .............................................                               43     


 D   Key I/M Terms and Most Common Emissions Tests .........................................                                     45     


 E   Details of OIG Analysis of Vehicles in Maryland that Failed 

     Initial 2003 I/M Test................................................................................................       47     


 F   Details on Covert Auditing Guidance..................................................................                       50     


 G   Key Reports Received from the 34 Vehicle I/M Programs.................................                                      53     


 H   Regional Audits and Evaluations of 34 Vehicle I/M Programs, 1999-2005 ......                                                54     


 I   Key Evaluation Questions ...................................................................................                55     


 J   Agency Response to Draft Report.......................................................................                      57     


 K   OIG Evaluation of Agency Response ..................................................................                        66     


 L   Summary and OIG Analysis of Responses from the 

     District of Columbia, Maryland, and Virginia I/M Programs .............................                                     68 


 M   Distribution ............................................................................................................   72     

                                             Chapter 1
                                             Introduction

Purpose
                    Pollution from mobile sources contributes to two of our worst urban air pollution
                    problems – smog and carbon monoxide (CO). Cars, light-duty trucks, large
                    trucks, buses, construction equipment, lawn and garden equipment, marine
                    engines, aircraft, and locomotives are just some of the types of motorized vehicles
                    and equipment the U.S. Environmental Protection Agency (EPA) defines as
                    mobile sources. On-road mobile source emissions account for approximately
                    51 percent of the CO, 29 percent of the hydrocarbons (HC), and 34 percent of the
                    nitrogen oxides (NOx) in our nation's air.1 Emissions from mobile sources are
                    much greater in major urban areas.

                    For on-road mobile sources like cars and light-duty trucks, the vehicle Inspection
                    and Maintenance (I/M) program is a principal method used to address mobile
                    source pollution in the more severely polluted major urban areas. I/M programs
                    require periodic testing of on-road motor vehicles and repair of vehicles that do
                    not meet standards. These tests are designed to determine whether a vehicle’s
                    emission controls are functioning properly, and whether emissions levels of HC
                    and NOx – which form smog – and CO are acceptable. Because I/M programs
                    are important to reducing health risks in major urban areas, we sought to
                    determine whether:
                        •	   Selected enhanced I/M programs have been effective in identifying poorly
                             performing vehicles, and ensuring they are adequately repaired and
                             emission reductions achieved.

                        •	   EPA’s oversight has ensured that enhanced I/M programs are achieving
                             program goals in a timely manner.
                    We selected I/M programs in Maryland, Virginia, and the District of Columbia for
                    more in-depth study because, among other things, the Washington, DC
                    metropolitan area was elevated in 1999 from “serious” to “severe” nonattainment,
                    and mobile sources contribute heavily to the area’s emissions. Further details on
                    their selection are in Appendix A.

Background

                    The 1990 Clean Air Act (CAA) Amendments outline a four-point strategy to
                    reduce emission from transportation sources, including development of:

1
    Based on 1999 data, according to EPA’s Website at www.epa.gov/oms/invntory/overview/pollutants/index.htm .


                                                         1

                      •	   Clean vehicles – more stringent emissions standards for new cars, buses,
                           trucks, and nonroad engines.
                      •	   Clean fuels – reformulated gasoline, diesel fuel, and nonpetroleum
                           alternatives.
                      •	   Clean transportation alternatives – strategies to encourage
                           transportation alternatives to address growth in vehicle travel.
                      •	   Inspection and maintenance programs – programs to identify faulty
                           emission controls and ensure vehicle repair to lower vehicle emissions.

                  Once vehicles are on the road, I/M programs are a primary mechanism to identify
                  poorly performing vehicles and require that such vehicles be repaired. I/M tests
                  use special equipment to measure the pollution in a vehicle’s exhaust. However,
                  not all I/M tests actually measure emissions, nor are they exclusively focused on
                  exhaust emissions. For example, the gas cap test is a pass-fail check for
                  evaporative leaks, and the On-Board Diagnostics (OBD) test monitors the
                  performance of emissions control systems on the vehicle but does not actually
                  measure emissions. Also, not all I/M tests target all three pollutants of concern
                  (CO, NOx, and HC). For example, the Idle test and the Two-Speed Idle test do
                  not measure NOx. I/M programs perform emissions testing of in-use vehicles
                  typically up to 8,500 pounds Gross Vehicle Weight Rating. Some States also
                  perform a safety inspection at the same time as the I/M emissions test, but we did
                  not review safety tests.

                  Why Do We Need Vehicle I/M Programs?

                  In 2004, approximately 237 million vehicles were registered in the United States.2
                  In 2000, Americans drove 2.3 trillion miles and consumed 8.2 million barrels of
                  fuel per day.3 Vehicle emissions can harm human health, damage crops and
                  forests, and impair visibility. Appendix B provides additional information on the
                  health and environmental impacts of vehicle emissions.

                  According to EPA and the National Academy of Sciences’ National Research
                  Council,4 vehicle I/M programs are an effective means of reducing vehicle
                  emissions and are considered to be among the most significant emissions control
                  strategies that States use. Identifying and repairing older vehicles in particular is
                  key to reducing emissions in major urban areas. According to a 2001 National
                  Research Council report, approximately 10-20 percent of the fleet contributes
                  more than 50 percent of the emissions for any given pollutant.5 However, while

2
  U.S. Department of Transportation Federal Highway Administration, Highway Statistics 2004, October 2005.
3
  Worldwatch Institute, Vehicle Production Inches Up, Vital Signs 2003, pp. 56-57.
4
  In a July 23, 2001, letter from the Director of Certification and Compliance Division, Office of Transportation and
Air Quality, to the National Academy of Sciences’ National Research Council, EPA agreed with the Council that
I/M programs are one of the most significant control strategies States use in their pollution reduction strategies.
5
  Committee on Vehicle Emission Inspection and Maintenance Programs, Board on Environmental Studies and
Toxicology, Division on Earth and Life Studies, Transportation Research Board, National Research Council,
Evaluating Vehicle Emissions Inspection and Maintenance Programs, 2001; and EPA response dated July 16, 2001.


                                                          2

                 modern cars (1996 and newer) emit less air pollution than older vehicles due to
                 improved technology, they are only cleaner if the emission control systems are
                 adequately maintained and operating properly. If not properly maintained, these
                 vehicles will not perform as originally designed, causing them to work harder,
                 wear out faster, and pollute more. Even seemingly minor malfunctions can cause
                 increased emissions. According to EPA, malfunctions can cause emissions to
                 increase substantially beyond Federal vehicle standards. Therefore, identifying
                 and repairing malfunctioning vehicles continue to be imperative in reducing
                 emissions in major urban areas.

                 Why Do States Say They Need Vehicle I/M Programs?

                 Vehicle I/M programs have played a critical role in States’ clean air plans.
                 According to Maryland Department of the Environment (MDE) officials, mobile
                 source control programs play a critical role in reducing air pollution on the
                 regional level. MDE stated that pollution from mobile sources contributes to
                 many of the mid-Atlantic region's worst air pollution problems – ozone, carbon
                 monoxide, and fine particulate matter. Overall since 1990, Maryland has
                 achieved a 50-percent reduction in mobile source emissions despite a 40-percent
                 increase in vehicle miles traveled, according to MDE.6 Multiple factors account
                 for these reductions, including enhanced I/M, fleet turn-over, and other mobile
                 source controls. While reduction credits are no longer broken out for individual
                 mobile source programs, Maryland believes its I/M program remains a
                 cornerstone of mobile source reductions in every SIP the State submits.
                 According to Maryland, its I/M program has accounted for a substantial portion of
                 the required emission reductions in its SIP, including about 40 percent of mobile
                 source emissions reductions and up to 25 percent of the needed reductions for the
                 SIP. As a result of emission reductions in both mobile and stationary sources,
                 several areas7 within Region 3 attained the 1-hour ozone standard of .12 parts per
                 million (ppm) by the 2005 deadline. MDE provided additional information about
                 why its I/M program is an important component of its clean air efforts (see
                 Appendix L).

                 According to the Virginia Department of Environmental Quality (VA DEQ), its
                 enhanced I/M program achieved a substantial portion of the required emission
                 reductions in its SIP. VA DEQ said the program provided 28 percent of the
                 needed reductions for the SIP, and specifically 45 percent of the mobile source
                 emission reductions in the 1999 SIP. As of May 2006, Virginia had achieved a
                 60-percent reduction in mobile source emissions since 1990 from its enhanced
                 I/M program, combined with other Federal mobile sources requirements, despite a
6
  According to Maryland, the reductions were estimated by using the estimates provided in EPA’s Mobile5b and
Mobile6 models.
7
  Region 3 areas that attained the .12 ppm 1-hour ozone standard were the Washington Region, the Philadelphia
Region, and the Kent and Queen Anne County Regions of Maryland; the Baltimore Region missed attainment by
1 parts per billion at one monitor, according to MDE. In 2004, the Baltimore, Washington, and Philadelphia
metropolitan areas were designated as moderate nonattainment areas under the new .08 ppm 8-hour ozone standard;
Kent and Queen Anne Counties were designated as marginal nonattainment areas.


                                                       3

                  31-percent increase in vehicle miles traveled, according to VA DEQ officials.
                  The VA DEQ also noted that these benefits do not consider reductions in toxic
                  emissions achieved through I/M programs.8 The VA DEQ further commented
                  that according to EPA’s 1999 National-Scale Air Toxics Assessment,9 mobile
                  sources are responsible for approximately 44 percent of outdoor toxic emissions,
                  almost 50 percent of the cancer risk associated with breathing outdoor toxics, and
                  74 percent of the noncancer risk. Thus, by ensuring that vehicles function
                  properly, I/M programs also decrease vehicles’ air toxics emissions.

                  Who Is Required to Implement Vehicle I/M Programs?

                  Not every State is required to have a vehicle I/M program. Generally, States with
                  areas found to have high levels of ozone and/or CO – known as nonattainment
                  areas – are required to have emission testing programs. A nonattainment area is a
                  geographic area in which the level of a criteria air pollutant is higher than the
                  level allowed by the Federal standards. States with urban areas with populations
                  of 200,000 or more found to exceed standards for ozone10 and/or carbon
                  monoxide by a specified amount are required to have I/M programs. Also, some
                  areas in attainment must implement I/M programs, such as under the CAA’s
                  Ozone Transport Region (OTR) requirements, to maintain areas that were once in
                  nonattainment. Other communities have voluntarily entered into Early Action
                  Compacts to achieve the new .08 ppm 8-hour ozone standard that replaced the
                  .12 ppm 1-hour ozone standard.11

                  Currently, 33 States and the District of Columbia operate a total of 52 different
                  I/M programs; some States operate different programs in different areas of the
                  State, depending on an area’s nonattainment classification. Of these programs,
                  25 States and the District of Columbia operate “enhanced” I/M programs.
                  Appendix C lists the I/M program participants for 2005. The differences between
                  basic and enhanced programs are as follows:
8
  According to VA DEQ, these numbers are derived from its SIP and are based on modeling estimates using EPA’s

Mobile5 and Mobile6 models. 

9
  Control of Hazardous Air Pollutants From Mobile Sources, Proposed Rule, March 29, 2006, Federal Register 71, 

p. 15808.
10
   All of the ozone-triggered I/M programs currently in operation were required because of their designation and
classification under the .12 ppm 1-hour ozone standard. The 1-hour ozone standard has since been replaced by the
.08 ppm 8-hour ozone standard. In accordance with CAA section 110(l) anti-backsliding requirements, all existing
1-hour ozone I/M programs must continue I/M until the areas have attained the .08 ppm 8-hour standard. EPA
allows an exception for basic I/M areas that have been redesignated to attainment under the 1-hour ozone standard.
If a 1-hour maintenance area is subsequently designated to nonattainment for the 8-hour standard, but at a
classification that would not otherwise trigger the I/M requirement, such an area has the option of converting the I/M
program to a contingency measure (as provided in Title 40 Code of Federal Regulations Part 51.372(c)), provided
the area can demonstrate that doing so will not interfere with its ability to comply with any National Ambient Air
Quality Standard or any other applicable CAA requirement.
11
   EPA is working with communities around the country to get clean air as soon as possible. Together with EPA,
these communities entered into Early Action Compacts to reduce ground-level ozone about 2 years sooner than
required by the CAA. The Early Action Compact option was only available for a limited time, and only under the
.08 ppm 8-hour ozone standard, as opposed to the .12 ppm 1-hour ozone standard addressed in the 1990 CAA
Amendments.


                                                          4

                     •	 Basic I/M programs are required in (1) all moderate CO nonattainment
                        areas having a 1990 urban population of 200,000 or more; (2) marginal
                        ozone nonattainment areas that had, or were required to have, an operating
                        vehicle I/M program prior to passage of the 1990 Act; and (3) CO
                        nonattainment areas with a design value of 12.7 ppm or less. States
                        implementing basic I/M must meet a performance standard based on idle
                        testing of light-duty vehicles and OBD testing of 1996 and newer vehicles.
                        While basic I/M programs are required to perform OBD testing on OBD-
                        equipped vehicles, for performance standard purposes, it is the idle test
                        alone (on 1968 and newer vehicles) that establishes the credit level that
                        must be met for basic I/M programs required under the 1-hour ozone
                        standard.12

                     •	 Under the CAA Amendments, certain areas in the country must implement
                        more stringent I/M programs, known as “enhanced I/M.” Sections 182
                        and 184 made vehicle I/M programs mandatory for these areas based on
                        such criteria as air quality classification, population, and location.
                        Enhanced I/M programs are required in (1) all serious, severe, or extreme
                        ozone nonattainment areas with urban populations of 200,000 or more;
                        (2) Metropolitan Statistical Areas with a population of 100,000 or more in
                        the Northeast Ozone Transport Region13 (irrespective of their air quality
                        classification); and (3) all moderate or worse CO nonattainment areas that
                        had a 1980 urban population of 200,000 or more. States implementing
                        enhanced I/M programs must meet a performance standard that includes
                        OBD testing, emissions testing, and an inspection to detect tampering.

                 How Do Vehicle I/M Programs Work?

                 Vehicle I/M programs help improve air quality by identifying high-emitting
                 vehicles in need of repair. This is done through visual inspection, emissions
                 testing, and/or accessing the OBD onboard computer codes from 1996 and newer
                 vehicles. Once identified, I/M programs require noncomplying vehicles to be
                 repaired as a prerequisite to continuing to operate within a given area (with
                 limited exceptions known as waivers).

                 States can perform testing at either a centralized test-only inspection facility
                 operated by the State or its contractor, or at a privately owned and operated
                 decentralized facility where certified mechanics conduct emissions testing. Some
                 States use hybrid networks where testing can be conducted at either a centralized

12
   The 1992 I/M rule included OBD in basic and enhanced performance standards, but model year coverage was not
specified because the requirements for OBD had not been developed and EPA did not know when the first OBD-
equipped vehicles would be manufactured. At that time, EPA did not know if the OBD test would replace tailpipe
testing or merely supplement it. Lastly, no credit for OBD was included in the original performance standards.
13
   Section 184 of the 1990 CAA Amendments created the OTR in the Northeast. The ozone-related SIP
requirements for States in the OTR are more extensive than those for other States in order to address regionally
transported ozone and its precursors in addition to locally elevated ozone levels.


                                                       5

                  or decentralized test facility. Most hybrid programs require that certain criteria be
                  met before a vehicle can be tested at a decentralized station.

                  Vehicle I/M test pass/fail standards are set according to the car’s model year and
                  vehicle class. Also, State and local areas are allowed some flexibility in
                  designing I/M programs to meet their goals.14 These program designs are
                  reviewed and approved by EPA as part of the SIP, which in essence is the State’s
                  strategy and commitment to achieving its air pollution goals.

                  Individual State I/M programs differ significantly in key ways, and therefore it is
                  not easy to compare one State’s program to another. For example, States do not
                  use the same types of emission tests and network types, and subject fleets vary
                  from State to State. This can lead to varied results. According to EPA’s Office of
                  Transportation and Air Quality (OTAQ), greater State-to-State consistency and
                  comparability are expected as States begin to rely more on OBD testing. Some
                  tailpipe tests are more stringent than others. One example of a more rigorous
                  tailpipe test is the IM240, which is considered more accurate because it is based
                  upon EPA's Federal Test Procedure. The Federal Test Procedure is sometimes
                  referred to as the “Gold Standard” for exhaust emission tests and is used to
                  determine a vehicle's compliance with new vehicle certification standards.15
                  Other types of tests include Acceleration Simulation Mode, Two-Speed Idle, and
                  Idle. At the same time, I/M programs can assign cutpoints of different stringency.
                  Because of this variability in both accuracy and stringency of tests, EPA assigns
                  credit for emissions reductions for each variation of tailpipe testing based on the
                  accuracy of the test and the stringency of the cutpoints. Appendix D provides
                  additional information on the most common tailpipe emissions tests.

                  The OBD test is not a tailpipe test, but rather is an indicator of emissions systems
                  performance, and OBD has been standard equipment on all new light-duty
                  vehicles and light-duty trucks sold in the United States since the 1996 model year.
                  Such testing is required on 1996 and newer light-duty cars and trucks. As of
                  2004, OBD-equipped vehicles comprised about 60 to 70 percent of the fleet.
                  Many of these first OBD-equipped vehicles are just now operating beyond the
                  8-year/80,000 mile warranty period on major emissions controls.

                  What Reports Are Mandated by EPA’s I/M Regulations?

                  States are required to submit four annual reports to EPA regions (on test data,
                  quality assurance, quality control, and enforcement) and a biennial report on
                  additional requirements. In addition, enhanced I/M programs are required to
14
   Rather than one standard test, as originally planned, States use various tailpipe tests. This is due to Section 348 of
the National Highway System Designation Act of 1995, which modified existing CAA I/M authority. This act
allowed States the time and opportunity to implement innovative program designs because one test standard would
not be practical in all States’ I/M programs.
15
   The Federal Test Procedure is a laboratory dynamometer test used to certify new cars against new-car emissions
standards. The Federal Test Procedure is roughly based on a typical urban area trip, complete with starts and stops.
Such a trip is known as a driving cycle, which can be approximated on a dynamometer.


                                                            6

         submit program evaluations on a biennial basis. Accurate data collection is
         essential to the management, evaluation, and enforcement of the I/M program.
         States’ I/M programs are required to gather test data on individual vehicles, as
         well as quality control data on test equipment. Under Title 40, Code of Federal
         Regulations, Part 51.365, States are also required to track Vehicle Identification
         Numbers (VINs) as part of their inspection program. Chapter 3 provides more
         information about the reporting requirements for State I/M programs.

         What is EPA’s Role in I/M Programs?

         EPA OTAQ develops and issues I/M regulations. Specifically, OTAQ develops
         national policies on mobile source emission control, determines the contribution
         of mobile sources to pollutant emission inventories, and assesses the potential
         effectiveness of various I/M tests at identifying vehicles in need of repair. OTAQ
         also establishes the amount of emissions reductions “credits” that proper
         implementation of various tests should receive. OTAQ provides guidance and
         technical support to EPA regions and States.

         EPA’s regional offices are responsible for the oversight of the vehicle I/M
         programs in the United States. The regional offices are responsible for reviewing,
         approving, and overseeing SIPs, which provide for vehicle I/M programs to
         reduce HC, NOx, and CO emissions. EPA regional offices are also responsible
         for ensuring that I/M programs meet their SIP commitments, including providing
         the required reporting. The SIPs contain agreed to requirements such as type of
         test, compliance rates, and waiver rates. Since promised emissions reductions are
         part of SIPs, regional offices are required to evaluate the reports provided and
         follow up with States on any significant issues.

Scope and Methodology
         To assess whether selected enhanced I/M programs have been effective in
         identifying poorly performing vehicles, ensuring they are adequately repaired, and
         achieving emission reductions, we obtained and analyzed State reports received
         by one EPA region (Region 3) from 2001 to 2004. We performed onsite work in
         two Region 3 States (Maryland and Virginia), and assessed the reliability of the
         I/M testing data provided by those States. To determine whether EPA’s oversight
         has ensured that enhanced I/M programs are achieving program goals in a timely
         manner, we developed and administered a survey to obtain I/M oversight
         information from all 10 EPA regional offices regarding State operations. This
         survey obtained information for the District of Columbia and each of the 33 States
         that operated I/M programs in 2005.

         Our evaluation was not intended to project conditions, findings, or results onto
         other EPA regions or States based on findings from Region 3. However, based on
         our survey of all 10 EPA regions as well as what we learned during our evaluation
         of 3 individual I/M programs, we do discuss issues and make recommendations


                                           7

concerning EPA oversight that are national in scope. We did not evaluate the
accuracy of the emission tests, but rather how the authorized programs operated in
relation to their SIP commitments for the identification and repair of poorly
performing vehicles.

Chapter 2 provides detailed information about our data analyses of I/M test data
for two I/M programs (Maryland and Virginia). Such data was not available for
the District of Columbia I/M program during the course of our field work. As a
result, we were not able to do similar analyses of I/M test data in the District of
Columbia I/M program. This is a limitation in our case study of the three
enhanced I/M programs that impact the Washington, DC major metropolitan area.

In Chapter 3, as shown in Chart 3-1, some States did not submit the required
reports to EPA, including the required test data report that contains the
information on initially failing vehicles and their resolution. Without this
information, neither we nor EPA have the data to conduct the analyses of vehicles
that failed the I/M test and how they were resolved to determine whether I/M
programs are meeting their SIP commitments.

We conducted field work from April 2005 to March 2006. We performed our
evaluation in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Appendix A provides more details
regarding our scope and methodology.




                                 8

                                            Chapter 2
      Some I/M Programs Need to Better Identify and
     Ensure Repair of Vehicles with Excess Emissions

                 While States in Region 3 have achieved substantial emissions reductions from
                 mobile sources through vehicle I/M programs,16 they did not ensure that poorly
                 performing vehicles have been properly identified and timely repaired.
                 Specifically:

                      •	   One of the five I/M programs in Region 3 (the District of Columbia) has,
                           since September 2005, used a less stringent testing procedure than agreed
                           to in its SIP, resulting in fewer poorly performing vehicles being
                           identified.

                      •	   Four of the five I/M programs (Delaware, Maryland, Pennsylvania, and
                           Virginia) reported substantial percentages of vehicles with no known final
                           outcome, ranging from 12 to 22 percent of vehicles that failed their I/M
                           inspection. The fifth program (District of Columbia) did not report this
                           measure to EPA.

                 Our in-depth work in one State (Maryland) showed that resolution of about
                 5 percent of failed vehicles (where the outcome was known) took over 21 months.
                 Depending upon their ultimate disposition and length of time before they are
                 repaired, failing vehicles that are not timely resolved may reduce the air quality
                 benefits achieved from the I/M program. For other vehicles, we could not
                 determine a resolution, and some of these vehicles appeared to continue to be
                 driven in the nonattainment area. Also, some States in Region 3, as well as in
                 other EPA regions, did not meet minimum reporting requirements. This occurred
                 because EPA has provided limited oversight over I/M programs (see Chapter 3).
                 Excess vehicle emissions can harm human health, damage crops and forests, and
                 impair visibility.

Less Stringent Emission Tests Used in One I/M Program
                 Since September 2005, the District of Columbia I/M program has been using a
                 less stringent emissions test than agreed to in its SIP for testing model years 1984
                 to 1995, which comprise about 25 to 30 percent of the vehicles in their program.
                 This resulted in less accurate identification of poorly performing vehicles. Due
                 largely to hardware and software problems, the District suspended IM24017
                 testing in September 2005, even though such testing is required by the SIP.

16
  See Appendix A for reasons for selecting Region 3 for detailed review. 

17
  The IM240 is a tailpipe test that requires a vehicle to run on a dynamometer for 240 seconds over a wide range of

operating modes, while the vehicle’s emissions are sampled. 



                                                         9

                    Instead, the District tested these model years under its less stringent idle testing
                    program used for older vehicles. Officials of the District’s Air Quality Division,
                    Department of Health, told us in May 2006 they expected to start IM240 testing
                    again in March 2007. Therefore, for at least 18 months (September 2005
                    February 2007), the District will not be in compliance with its SIP commitment to
                    use IM240 testing.

                    Further, until August 2005, District officials said their OBD18 test equipment had
                    had technical problems. For 1996 and newer vehicles (about 70 percent of the
                    District’s vehicles), the District agreed to perform OBD testing. However, the
                    District’s 2003 report acknowledged that OBD testing in the District did not meet
                    EPA standards, and identified potentially significant problems with the I/M
                    program and accuracy of reported data. The report also contained documents
                    related to the current status of the program and planned corrective actions.
                    According to District officials, the previous software could not communicate with
                    some newer vehicles (some 2003 and newer models) because the equipment was
                    not compatible with the 2003 OBD technology and thus did not comply with
                    applicable Federal regulations and EPA guidance.

                    In May 2006, District officials informed us that they embarked on a major project
                    to renovate and upgrade I/M stations and data systems. District officials also said
                    they had been working with contractors since May 2005 to remedy the problems
                    at their centralized vehicle inspection stations, and the majority of the problems
                    related to the OBD testing protocol have since been fixed.

Improvements Needed to Ensure Failed Vehicles Repaired Effectively
                    Repair of poorly performing vehicles is perhaps the most critical part of a vehicle
                    I/M program, since programs will only be effective if poorly performing vehicles
                    are identified and actually repaired in a timely manner. The I/M programs in
                    Region 3 reported significant percentages of vehicles with no known final
                    outcome (ranging from 12 to 22 percent of initially failed vehicles). Also, vehicle
                    waiver rates exceeded the percent allowed in the approved SIP for Maryland. Our
                    detailed work in Maryland and Virginia suggests that these States need to follow
                    up more thoroughly to determine the outcome of failed vehicles.
                    Significant Percentages of Vehicles with No Known Final Outcome
                    Vehicles are known as vehicles with “No Known Final Outcome” if they initially
                    fail their I/M test and then have no record of (1) ever passing a subsequent I/M
                    test, (2) receiving a waiver, (3) retiring from service (scrapped), or (4) being sold
                    outside of the nonattainment area. Because the specific deposition of each vehicle
                    involves data sources outside of the I/M database, I/M programs have difficulty
                    determining if and when vehicles are retired from service or sold outside of the



18
     OBD testing uses a computer to indicate the performance of the vehicle’s emissions systems.


                                                          10

                   area. As shown in Table 2-1, I/M programs in Region 3 reported vehicles with no
                   known final outcome ranging from 12.4 to 21.8 percent for 2003 to 2004.

 Table 2-1: Number and Percent of Vehicles Reported as Having No Known Final Outcome
                                                                                     Number
                                   Reported           Number         Percent       Reported with        Percentage With
                 Calendar           Number            Initially      Initially    No Known Final        No Known Final
   State           Year        Initially Testede       Failed         Failed         Outcome               Outcomef
Delaware          2003a                  N.R.              N.R.         N.R.             N.R.                    N.R.
                   2004              165,000            14,122          8.6%            2,382                  16.9%
Maryland           2003            1,304,998           136,980        10.5%              N.R.                   N.R b
                   2004            1,315,280           133,001        10.1%            29,044                  21.8%
Pennsylvania       2003            3,244,449           184,402          5.7%           23,624                  12.8%
                   2004            5,758,270           332,265          5.8%           41,182                  12.4%
Virginia           2003              718,177            54,328          7.6%            8,324                  15.3%
                   2004              745,455            48,701          6.5%            6,300                  12.9%
District of        2003               70,066             8,407        12.0%               N.R               Unknown c
                       d
Columbia          2004               224,655            19,486        8.67%              N.R.                    N.R.
 N.R.: Not reported 

 a
   Region 3 had not received a 2003 report from Delaware as of March 2006.

 b
   Maryland first reported vehicles with no known final outcome in 2004. According to Maryland officials, 2004 was the first 

 year Maryland was able to fully match vehicle test data with vehicle history data in order to accurately report this category. 

 c
   District of Columbia did not include “vehicles with no known final outcome” in its reports. Because of reporting

 deficiencies in the reports received by Region 3, we could not determine this rate for the District of Columbia I/M 

 program. 

 d
   Region 3 had not received a 2004 report from the District of Columbia as of March 2006. The District of Columbia 

 provided the 2004 report after our field work and after issuance of our draft report. 

 e
   Reported numbers of tests include all types of I/M tests (tailpipe and OBD).

 f
   Reported vehicles with no known final outcome divided by number of reported initial failures. 


 Source: Annual reports submitted to Region 3 by its States


                   Because the District of Columbia was behind in I/M reporting, we could not
                   determine the number of vehicles with no known final outcome. We discussed
                   this issue with District officials, who told us they would include 2005 data in their
                   July 2006 report to EPA. The District of Columbia provided the 2005 report after
                   our field work ended and after issuance of our draft report. The report contains
                   information related to vehicles with no known final outcome. The Region was
                   aware that the District’s I/M program has had both data and operational problems,
                   but regional oversight and assistance to remedy the issues have been limited.

                   In-Depth Review of Two States Noted Various Issues
                   Because of the significant percentages of vehicles reported as having no known
                   final outcome, we performed more detailed analyses of the I/M programs in
                   Maryland and Virginia. The data was not available to perform similar analyses
                   for the District Columbia; a later section discusses those data problems. Although
                   States have made efforts to increase the effectiveness of vehicle repairs, further
                   I/M program improvements are needed.




                                                            11

                  Maryland

                  MDE provided us with data for vehicles tested from January 2003 though April
                  2005, including data from the Maryland Motor Vehicle Administration.
                  Maryland's Vehicle Emissions Inspection Program is a biennial program, with a
                  centralized network of 19 stations that tested 1,304,998 vehicles in 2003.
                  According to State officials, Maryland tests vehicles up to 26,000 pounds Gross
                  Vehicle Weight Rating, and also uses 4-wheel drive dynamometers for testing
                  all-wheel drive vehicles.19 The State also provides technician and repair facility
                  certification programs, as well as training, support, and outreach activities for the
                  vehicle repair community. Maryland operates a Registration Denial enforcement
                  program (see Appendix C for information about types of vehicle enforcement
                  programs). As shown in Chart 2-1, Maryland identified 136,980 initially failing
                  vehicles in 2003. This means that about 10 percent of the vehicles failed their
                  initial I/M test.

                           Chart 2-1: Maryland Initially Tested Vehicles, 2003

                                   Initially Tested Vehicles in Maryland 2003
                                    Total Reported Tested: 1,304,998




                                        Initially Failing,
                                             136,980




                                                                             Initially
                                                                           Passing,
                                                                           1,168,018




                                              Initially Passing         Initially Failing

                           Source: OIG analysis of data provided by MDE



                  For vehicles that initially failed an inspection in 2003, we traced their status
                  through April 2005. We analyzed this data to determine whether a vehicle was
                  appropriately resolved (i.e., passed a subsequent inspection, was granted a waiver,
                  had its tags turned in, was no longer in the I/M area, or was exempted). As shown
                  in Chart 2-2, about 82 percent, or 111,435 of the 136,980 vehicles, were resolved
                  by April 2005.




19
  Some all-wheel/4-wheel drive vehicles are full time all-wheel drive and unable to turn off this feature. These
vehicles cannot be tested on a 2-wheel drive dynamometer. Without 4-wheel drive dynamometers, pre-OBD
vehicles would generally be tested using idle testing.



                                                                  12

        Chart 2-2: Status of Initially Failed Vehicles in Maryland
                   Resolution of Initially Failed Vehicles (based on our analysis)
                                     Total Initial fails: 136,161 a


                                   24,726
                                    18%




                                                              111,435
                                                               82%



                                        Resolved    Not Resolved
           a
           The total in Chart 2.2 (136,161) is 819 vehicles less than 

         the total of initially failed vehicles (Chart 2.1), because we found 

         duplicate VIN numbers during our analysis of the data provided. 


        Source: OIG analysis of data provided by MDE



Chart 2-3 shows how the 111,435 vehicles with a known final outcome were
resolved. As noted, 99 percent of the vehicles were resolved in one of three ways:
the vehicle either passed a subsequent inspection, was granted a repair waiver, or
had its tags turned in.

     Chart 2-3: How Initially Failing Vehicles Were Resolved for 

     111,435 Vehicles With a Known Final Outcome in Maryland

               Senior/Disabled.
                                                   Resolution of Maryland Vehicles
                   Waiver 

                    1048
                                   Total = 111,435
                      1%               Out of Area
                                           43
                                           0%              Exempt
    Repair Waivers a
       14,956                                                10
         13%                                                 0%
                                                                        Passed
                                                                        Tags Turned in
                                                                        Repair Waivers
                                                                        Senior/Disabled. Waiver
   Tags Turned in                                                       Out of Area

       15,301
                                                          Exempt
        14%                                 Passed
                                            80,077
                                             72%



        a. Vehicles that cannot be repaired to achieve the emissions standards 

        may qualify for a 2-year waiver if minimum expenditures have been made 

        to repair emissions system components. 


        Source: OIG data analysis of data provided by MDE


Timeliness of Resolved Vehicles

Maryland’s I/M Statute allows motorists 120 days to repair failed vehicles and
return for re-inspection, and motorists can be granted up to two 120-day



                                                   13

                  extensions (cumulatively, nearly up to 1 year). Maryland's I/M enforcement
                  program is based on the suspension/denial of vehicle registration. While
                  registration renewal in Maryland is also biennial, it is not linked to the Vehicle
                  Emissions Inspection Program biennial test cycle. Maryland’s Registration
                  Denial enforcement program includes tracking vehicles to ensure that the vehicles
                  are inspected when due and maintaining a “no show list” for vehicles not brought
                  in when required. If vehicles are not brought in for inspection or re-inspection,
                  Maryland first gives the vehicle owner a warning and then suspends the vehicle’s
                  registration. Maryland also assesses the owner $15 for every 28 days a vehicle is
                  late for an inspection.20 If an owner drives with a suspended registration, he or
                  she could be given a citation by law enforcement (Maryland officials told us that
                  the State does not keep statistics of the number of these citations due solely to
                  Vehicle Emissions Inspection Program violations).

                  As shown in Chart 2-4, there can be a significant amount of time between when a
                  vehicle fails the emissions test and when it is repaired.

                              Chart 2-4: Timeline from Initial Failure to Resolution for 

                              111,435 Vehicles With a Known Final Outcome (cumulative)


                                                  Timeliness of Resolution of Failed Vehicles in
                                                                   Maryland
                                                                                                      100%
                                                                                          94%
                                        100                               88%
                                         90                                                     98%
                                         80                                       92%
                           % Resolved




                                         70                     79%
                                         60          55%         55%
                                         50                    Resolved
                                         40
                                         30
                                         20                      4 mos - I/M
                                                               program repair
                                         10       8%                goal
                                          0
                                              0         4       8          12      16     20    24     28
                                                                          Time (months)

                              Source: OIG analysis of data provided by MDE

                  Based on our analysis of Maryland’s vehicle data, 45 percent of the 111,435
                  initial failures with a known final outcome were not resolved after 4 months, the
                  timeframe Maryland law allows for a motorist to return after an initial test failure.
                  Further, about 12 percent were not resolved after a year, and 5 percent took longer
                  than 21 months for resolution. By comparing VIN numbers with I/M test results
                  in the Maryland database, we identified 1,665 vehicles (about 1.2 percent) that


20
  According to Maryland, the State Motor Vehicle Administration checks the no-show list against its vehicle
registration database weekly and removes vehicles from the list that have been sold, moved out of the area,
scrapped, or granted extensions; the remaining vehicle owners are sent a letter advising that their registration will be
suspended 30 days after failure to comply.


                                                                    14

                failed their Maryland I/M test in 2003, never passed a subsequent I/M test, and
                then failed a Maryland I/M test again in 2005.

                Maryland officials explained there are several factors that can contribute to the
                amount of time taken to resolve vehicles after failing an inspection, including:

                     •	    The State’s I/M Statute provides motorists up to 120 days (about
                           4-months) to have their vehicle repaired and to return for a retest.
                     •	    Multiple retests are sometimes necessary before passing (returning
                           vehicles are not always successful in passing a retest).
                     •	    Motorists can be granted up to two 120-day extensions (cumulatively,
                           nearly up to 1 year).
                     •	    Motorists sometimes arrive late for scheduled re-tests (although they must
                           pay a late fee, this extends the time for repairs).

                Maryland officials noted that owners do not get a full 2 years before being
                required to return for their next inspection; the owner will still be required to have
                a vehicle tested again every 2 years after its previous I/M anniversary date. For
                example, if resolution takes 15 months, the vehicle will still be due for its next
                regularly scheduled I/M inspection 9 months later.

                Vehicles with Unclear Final Outcomes
                For the 24,726 vehicles that we previously noted had unclear final outcomes
                (about 18 percent of the 136,980 initially failed vehicles), these vehicles generally
                fell into three categories, shown in Table 2-2:

 Table 2-2: Major Categories of Unclear Final Outcomes in Maryland
                          Number of
 Category                  Vehicles                          Maryland Explanation
 No Current Record for         7,945     “In the basic look-up function, if the VIN has been re-titled, or becomes
 Title                                   inactive, there will be no record for the given title. In some of the
                                         manual lookups, we did not follow through by manually keying in the
                                         VIN to determine if [the vehicle] had become inactive, or had a new title
                                         number/owner.”
 Sold                          2,234     “Vehicles that are sold may still be in the area, but not yet re-titled in
                                         Maryland, or could subsequently have been registered out of State.
                                         Unless the sold vehicles are actually re-titled in Maryland, there is no
                                         way to determine the disposition.”
 Vehicles With No Result      13,655     “These vehicles were checked manually over time during the normal
 (have not passed retest                 course of operations and removed from the no-show list for a valid
 nor received a waiver),                 reason.” However, as discussed below, MDE did not maintain
 But Are Not on the                      documentation of the manual checking of these vehicles.
 Current No-Show List

Source: OIG analysis of data provided by MDE and explanations provided by Maryland



                The remaining 892 vehicles fell into several categories, including “Office Date
                Change,” “Wait Time on Return,” “Vehicle has been updated,” and “Other.” See
                Appendix E for more details.


                                                       15

For the first two categories, while many of these vehicles may no longer be driven
in the area or may be retired, this could not be ascertained from the category
descriptions provided. Maryland officials said their review of the data showed
that a majority of these vehicles were neither in the test records nor on the "no
show" list, which they concluded means they are most likely not being driven in
the area. However, according to Maryland, normally when a failed vehicle is
sold, the new owner receives new dates – i.e., the test failure does not carry over
to the new owner. Based on this practice, in theory a failing vehicle could be sold
multiple times before being required to be retested. Maryland commented that
while in theory this is possible, they do not believe this occurs to any significant
degree. Also, Maryland noted that since its Motor Vehicle Administration sends
out I/M test notices within 6 months after a resale, and the testing due date on the
notice is 8 weeks after it is sent, a vehicle would have to be resold within
8 months to avoid testing. The numbers of these vehicles that are no longer in the
area could not be determined from the data provided.

For the third category, consisting of 13,655 vehicles, Maryland described the
issue of these 13,655 vehicles as a documentation issue. Maryland responded to
our draft report that all 13,655 vehicles were checked manually over time during
the normal course of operations and removed from the no-show list for a valid
reason. Maryland further noted that to recreate this list information for the OIG, it
would have to manually look up each vehicle a second time, which would be a
substantial amount of work. Rather than recreating this information, Maryland
provided a sample of 20 vehicles from the 2003 testing data. Our analysis of the
information provided by Maryland for 20 vehicles found that the information was
sufficient to establish that 12 vehicles were resolved and 8 vehicles were not
clearly resolved. Appendix E provides more detail on these 20 vehicles.

During our field visit to Maryland in September 2005, MDE provided us with an
analysis of initially failing vehicles. The MDE analysis showed the following
results: 12 percent (16,781vehicles) with no result within 18 months, and 3
percent (4,542 vehicles) that could not be accounted for anywhere in the system.
According to MDE, the 9-percent difference (12,239 vehicles) included vehicles
that they did not have a result for, but that they could account for as still in the
system (e.g., extensions, retests, etc.).

Waiver Rates

Maryland reported a 10-percent waiver rate in the 2003 annual data report
submitted to EPA (13,849 vehicles) and again in the 2004 annual data report
(13,100 vehicles). This waiver rate is well above the 3 percent rate agreed to in
Maryland’s SIP. Vehicles that cannot be repaired to achieve the emissions
standards may qualify for a 2-year waiver if minimum expenditures have been
made to repair emissions system components. For all vehicles that fail an initial
inspection, the minimum waiver expenditure in Maryland is $450. One reason for
the high percentage of waivers was that Maryland’s waiver limit remained at $450



                                 16

                and this limit cannot be adjusted for inflation without action from the State
                legislature. Maryland’s waiver limit has not been raised even though adjustment
                for inflation is required by the Clean Air Act Amendments of 1990. Section 182
                (3)(C)(iii) provides:
                         In view of the air quality purpose of the program, if, for any vehicle,
                         waivers are permitted for emissions related repairs not covered by
                         warranty, an expenditure to qualify for the waiver of an amount of
                         $450 or more for such repairs (adjusted annually as determined by
                         the Administrator on the basis of the Consumer Price Index).

                These vehicles represent a significant percentage of initial fails that are driven
                without passing an inspection and could have a significant impact on emissions.

                In response to our draft report, MDE noted that during the time period covered by
                its SIP, Maryland continually worked to reduce the waiver rate with the ultimate
                goal of reaching the agreed upon rate. However, the actual waiver rates for the
                I/M program remained higher than expected and documented in these plans. In
                2005, Maryland adjusted its modeling activities to reflect the actual waiver rate,
                and is working with Region 3 to adjust its related emission credits accordingly for
                use in planning future SIP revisions, including revisions needed to attain the
                8-hour ozone standard.

                Gas Cap Test
                Maryland only provides motorists with an advisory for gas caps that fail the
                mandated SIP test (unlike other States that require them to be replaced) and does
                not follow up to ensure these failing gas caps are replaced. Maryland believes
                that gas cap tests can give conflicting results compared to OBD results. However,
                requiring replacement of failing gas caps could lead to further reductions of
                emissions. EPA concluded that based on data from the Wisconsin I/M program
                that show over 30 times as many OBD vehicles fail the stand-alone gas cap test as
                compared to OBD, gas cap testing should continue for OBD I/M checks rather
                than just relying on OBD results.21 While EPA did not quantify evaporative
                emissions in this study, the Agency concluded that there appears to be an
                adequate benefit from conducting a stand-alone functional gas cap test as part of
                the OBD check of the evaporative emission system.

                I/M Implementation Challenges

                Maryland also provided information regarding the importance of its I/M program
                and the challenges that the State has encountered in implementing the I/M
                program. Among other things, MDE noted that:



21
 EPA 420-R-00-018, “Effectiveness of OBD II Evaporative Emission Monitors - 30 Vehicle Study,” revised
October 2000.


                                                    17

     In operation since the mid 1980’s, the Maryland Vehicle Emissions
     Inspection Program (VEIP) has been reducing emissions from cars and
     trucks for more than twenty years. As vehicle technologies have continued
     to advance, I/M technologies have also advanced. The VEIP's evolution has
     taken it from the idle tailpipe test, to the transient IM240 test, to today’s
     computerized OBD test. Each step along the way, Maryland has been
     committed to implementing the best I/M program possible. However,
     enhancements to this program have produced a wide range of public
     opinions and concerns. As a result, the incorporation of new test types and
     procedures has made it one of the most difficult environmental programs to
     implement over the years. One of the major challenges of the VEIP is to
     balance the goal of maximizing environmental benefits with consumer
     acceptance of the program. This challenge is not unique to Maryland.
     Almost all areas implementing enhanced I/M programs face the same issue.
     Without consumer acceptance, there will be no environmental benefits.
     Continued attention to customer service eventually turned public rejection
     into public acceptance of the VEIP. According to MDE, while this constant
     balancing approach to the I/M program has left room for continued
     improvement in some areas, it has produced a program that is unique to
     Maryland while at the same time enabling it to remain a critical component
     of the SIP. Most importantly, Maryland's I/M program achieved its most
     important goal, bringing clean air to Maryland citizens.


Virginia

VA DEQ provided us with data for vehicles tested from January 1, 2004, through
July 31, 2005. Virginia operates a decentralized program that tested 745,455
vehicles in 2004. As shown in Chart 2-5, Virginia reported 48,701 initially failing
vehicles (7 percent of initial tests).
       Chart 2-5: Initially Tested Vehicles in Virginia in 2004

                     Initially Failed Vehicles in Virginia 2004
                       Total Reported Tested: 745,455




                   Initially Failing
                         48,701




                                                                        Initially
                                                                        Passing
                                                                        696,754


                           Initially Passing        Initially Failing

       Source: OIG analysis of data provided by VA DEQ




                                               18
Rather than reporting “Vehicles with no known final outcome,” Virginia reported
percentages of “retired vehicles,” which it said in its 2004 report it determined by
subtracting the number of vehicles with known final outcome (last re-test pass and
waiver) from the number of initial fails. While acknowledging that not all are
retired, State officials believe the majority of these vehicles are retired. At the
time our field work ended, Virginia was still analyzing the issue by tracing
vehicles using VIN numbers provided during our evaluation to determine the
outcome of vehicles that fail I/M tests, since it will still be important in the future.
We analyzed VA DEQ data by tracing initially failed vehicles by VIN number from
January 1, 2004, through July 31, 2005. We found that 7,014 vehicles, or about
14 percent, had no known final outcome (see Chart 2-6). This is close to the
percentage Virginia reported to EPA for 2004 (12.9 percent, or 6,300 vehicles).

       Chart 2-6: Status of Initially Failed Vehicles in Virginia

             Resolution of Initially Failed Vehicles (Based on Our
                                     Analysis)
                   7,014  Total   Initial Fails: 48,705a
                     14%




                                                         41,691
                                                          86%
                           Resolved   Not Resolved (b)
   a
    The total in Chart 2.6 (48,705) is 4 higher than the total of initially

   failed vehicles (Chart 2.5) because we found a variance during our 

   analysis of the data provided. We consider this variance to be insignificant. 

   Source: OIG analysis of data provided by VA DEQ

Neither the number of these vehicles no longer in the area nor the number that
may still be in the area could be determined from the data provided. We provided
our detailed analysis to Virginia for followup, which VA DEQ was still in the
process of addressing as of October 1, 2006. VA DEQ provided preliminary
information on 46 of the 7,014 vehicles with no known final outcome. It found
that 30 vehicles were over 24 years old and no longer subject to I/M, and 16 had
received a pass or waiver that was not originally identified in the database
because of incorrect VIN entry or other reasons. Virginia is in the process of
determining the final disposition of each remaining VIN using national data
sources such as Carfax and Virginia Department of Motor Vehicles data. Virginia
noted that studies from other I/M programs (California, Arizona, and Colorado)
have indicated similar no-final-pass rates. VA DEQ officials estimated that their
study of final resolution of all failed vehicles should be completed by fall 2006.




                                        19

In response to our draft report, VA DEQ provided an update on its nearly
completed study, noting that preliminary indications are that the status of a
substantial number of the vehicles with no known final outcome can be identified
through various mechanisms. Appendix L provides more information on the
mechanisms used by VA DEQ in its study.

As shown in Chart 2-7, the majority of the 41,691 resolved vehicles passed a
subsequent inspection.

    Chart 2-7: How Initially Failing Vehicles Were Resolved

    for 41,691 Vehicles With a Known Final Outcome in Virginia 


                      Resolution of Virginia Vehicles
                              Total = 41,691

                                          Waivers
                                           614
                                           1%




                                                               Waivers
                                                               Passed


        Passed
        41,077
         99%


   Source: OIG analysis of data provided by VA DEQ



Virginia offers a one-time 30-day extension for registrations if the vehicle fails an
inspection. As shown in Chart 2-8, we also found that the majority of these
resolved vehicles were resolved within 3 months (94 percent) and less than 1
percent took longer than 1 year. Virginia’s waiver rate was in compliance with its
SIP commitment. The 2005 waiver limit for Virginia was $620. Virginia
reported waiver rates below 2 percent for both 2003 (1.6 percent, or 896 vehicles)
and 2004 (1.3 percent, or 626 vehicles). This waiver rate is under the 3 percent
rate agreed to in Virginia’s SIP.




                                    20

          Chart 2-8: Timeline from Initial Failure to Resolution for 41,691 Vehicles
          With a Known Final Outcome in Virginia

                                Timeliness of Resolution of Failed Vehicles in
                                                  Virginia
                         100%                                        97%        98%        98%        99%        100%
                                              92%        95%
                          90%
                          80%                          86%
          % Resolution

                          70%       69%             Re solve d
                          60%
                          50%
                          40%
                                                  1 m o - I/M
                          30%                   progra m re pa ir
                          20%                        goa l
                          10%
                           0%
                                0         2          4           6          8         10         12         14
                                                                     Time (months)


         Source: OIG analysis of data provided by VA DEQ




Data Ensuring Effectiveness of Selected State I/M Programs Lacking
          EPA did not have adequate information ensuring that selected State I/M programs
          were achieving the emissions reductions claimed. EPA regulations (see box)
          require I/M programs to submit reports on test data, quality assurance, quality
          control, and enforcement to EPA by July of each year. This information should
          help EPA fulfill its responsibility to ensure that State I/M programs have been
          effective in identifying poorly performing
          vehicles and ensuring needed repairs. Further
                                                                      Key I/M Reporting Requirements
          details on reporting are in Chapter 3. Our survey                  for State Programs
          of all 10 EPA regions for the 34 I/M programs
          showed that for the period 1999 to 2004:                   “Data analysis and reporting are
                                                                                                        required to allow for monitoring and
                                                                                                        evaluation of the program by
                         •   Eleven programs submitted all the                                          program management and EPA,
                             required reports in a timely manner.                                       and shall provide information
                                                                                                        regarding the types of program
                         •   Fourteen programs had either never                                         activities performed and their final
                             submitted the required reporting or the                                    outcomes, including summary
                             regions were unsure whether the reports                                    statistics and effectiveness
                                                                                                        evaluations of the enforcement
                             were submitted.                                                            mechanism, the quality assurance
                         •   Four programs submitted reports but they                                   system, the quality control program,
                             were not timely.                                                           and the testing element.”

                         •   The remaining five programs had mixed                                      Source: Title 40 Code of Federal
                                                                                                        Regulations Part 51.366.
                             results (some reports were submitted
                             timely but some were not received).

          Further, our in-depth work in EPA Region 3 indicated that EPA was not
          consistently provided the key reports needed to assess the effectiveness of its


                                                                      21

                    authorized State I/M programs. As shown in Table 2-3, Region 3 did not receive
                    these reports from two of five programs (Delaware and District of Columbia).
                    Region 3 also did not receive timely reports from Pennsylvania (2003 and 2004)
                    and Virginia (2003). However, Region 3 approved a time extension for Virginia
                    due to database delays resulting from the change over to a new I/M
                    communications contractor.
 Table 2-3: Summary of Key I/M Reporting Requirements for Region 3 States for 2003 and 2004
                                                                 All
    State/     Calendar                 Date     Submitted    Reports
  Program        Year    Date Due Submitted       Timely a   Received                Missing Reports
Delaware         2003    July 2004      N.R.         No          No       Not submitted as of March 2006
                     b
                2004     July 2005    Feb. 2006      No          No       Missing Quality Assurance and Quality
                                                                          Control Reports
District of      2003    July 2004 Nov. 2005         No          No       Missing Quality Assurance and Quality
Columbia                                                                  Control Reports, and enforcement
                                                                          reports.
                 2004    July 2005     August       Nob          No       Missing Quality Assurance and Quality
                                       2006 b                             Control Reports, and enforcement
                                                                          reports.b
Maryland         2003    July 2004    July 2004     Yes         Yes       None (but did not report on required
                                                                          Test Data Report category of Vehicles
                                                                          with no known final outcome
                                                                          (regardless of reason)
                 2004    July 2005    July 2005     Yes         Yes       None - Made significant changes over
                                                                          2003 including adding section in report
                                                                          on vehicles with no known final
                                                                          outcome (after our May 2005
                                                                          discussions with the State) and
                                                                          included schedules for first and
                                                                                                           c
                                                                          subsequent OBD retest results
Pennsylvania     2003    July 2004    April 2005     No         Yes       None missing
                 2004    July 2005    Feb. 2006      No         Yes       None missing
Virginia         2003    July 2004    Mar. 2005     Yesd        Yes       None missing
                 2004    July 2005 June 2005        Yes         Yes       None missing
a.
  Reports due by July of each year for prior calendar year. EPA regulations require I/M programs to submit test data, quality

assurance, quality control, and enforcement reports to EPA by July of each year. 

b
  As of March 2006, District of Columbia had not submitted report for 2004 data. District officials confirmed in May 2006 they had

not submitted a report for 2004 and agreed with Region 3 to first focus on submitting a 2005 report and then work on prior reporting. 

The District of Columbia provided the 2004 report after our field work ended and after issuance of our draft report. 

c
  Maryland first reported vehicles with no known final outcome in 2004. According to Maryland officials, 2004 was the first year

Maryland was able to fully match the vehicle testing data with the vehicle history data in order to accurately report this category.

d
  Virginia requested and received an extension from Region 3 because it changed contractors and was in the process of transferring 

data to a new database. 


Source: Annual reports submitted to Region 3 by its States



Significant Issues Identified in District of Columbia Annual Report
                    The District of Columbia’s 2003 test data report identified potentially significant
                    problems with its I/M program and accuracy of reported data, including that it
                    could not demonstrate compliance with SIP requirements. The report contained
                    documents related to the current status of the program and planned corrective
                    actions, including a discussion of data problems that impacted the accuracy of the
                    annual report.



                                                                 22

          The 2003 District of Columbia test data report provided incomplete details on I/M
          program effectiveness because it did not include information for all tested
          vehicles. The 2003 I/M data report shows only about 70,000 initial tests. District
          officials acknowledged the initial inspection counts reported in the 2003 report
          were not based on the complete dataset. During 2003, the District’s I/M program
          implemented the OBD test protocol on an advisory basis (i.e., if a vehicle fails the
          OBD test, it is given an IM240 test, which is then used as the basis for making a
          pass/fail determination). There were nearly 30,000 OBD initial tests during 2003,
          and this OBD data was not included in the 2003 annual report submitted to EPA.
          This missing data limited our ability to perform a detailed evaluation of the
          District’s I/M program as we did for Maryland and Virginia. We also did not
          review the District’s waiver rate due to these data issues.

          The 2004 report provided after our field work ended and after issuance of our
          draft report also did not contain complete information. The District agreed with
          Region 3 to first focus on submitting a more complete 2005 report and then work
          on prior reporting. The District of Columbia provided the 2005 report after our
          field work ended and after issuance of our draft report. This report does contain
          more information, such as information related to vehicles with no known final
          outcome. We did not review this report in detail. More accurate and complete
          reporting is needed to provide EPA with information related to the effectiveness
          of the program and progress made by the District.

Challenges in Determining Final Outcome of Failing Vehicles
          Some of the “vehicles with no known final outcome” identified in State reports
          and during our review of Maryland and Virginia may be retired or moved out of
          the I/M area. However, neither Region 3 nor the States know how many of these
          are no longer on the road. According to Region 3:

                 There will always be some level of vehicles with no known final
                 outcome, due to some vehicles being retired, sold out of program
                 area, temporarily taken off the road, those receiving legal
                 extensions, etc. It is incumbent upon EPA and the I/M program to
                 find noncompliant vehicles that are still in operation. However, it
                 is unclear what portion of these State-by-State high percentages
                 are valid (i.e., normal retirement) vs. noncompliers. I/M programs
                 do not necessarily capture data to easily identify these
                 noncompliers, and State motor vehicle databases often lack tools
                 to readily track them as well. Investigation can be time
                 consuming, difficult, or costly.




                                           23

                In its 2001 report, Evaluating Vehicle Emissions Inspection and Maintenance
                Programs, the National Academy of Sciences’ National Research Council22
                reported that:

                         Studies also show that between 10% and 27% of vehicles that fail
                         an I/M test never pass the test. Their exact fate has not been well
                         characterized, although some have been found to be still in
                         operation in I/M areas in some states more than a year after their
                         last test.

                We acknowledge there are barriers to States knowing the final outcome of a
                percentage of vehicles. Currently, States do not have access to other States’
                information to determine whether vehicles have moved to other States. The U.S.
                Department of Transportation does not maintain a complete database of VINs, but
                most States have the information for vehicles in their jurisdiction. Also, States
                with I/M programs are required to obtain VINs as part of their inspection
                program, and if they would share this information it would assist in tracking the
                final outcome of initially failing vehicles. Organizations such as the State and
                Territorial Air Pollution Program Administrators/Association of Local Air
                Pollution Control Officials (STAPPA/ALAPCO), the Environmental Council of
                States, or the National Conference of State Legislatures may be able to assist in
                establishing reciprocity agreements for sharing such vehicle information. We
                recognize that cost considerations may impact a State’s decision to further follow
                up on vehicles with no known final outcome.

                This is also a key issue for OBD-equipped vehicles, since the OBD fleet (1996
                and newer) is just now starting to operate past the 8-year/80,000 mile warranty
                period on the major emissions control components. For example, in Maryland,
                failure rates start to increase above the average 10 percent in the 1997 model year.
                Failure rates for pre-OBD-equipped vehicles are even higher, ranging from
                10 percent (1995 model year) to 36 percent (1984 model year) according to
                Maryland’s 2004 report. If failing vehicles are identified, the States will still need
                to ensure that these vehicles are adequately repaired and pass a subsequent test or
                are given a waiver, retire, etc.

                Another challenge involves covert audits (i.e., using unidentified vehicles
                “rigged” to fail). States are required to perform regular covert audits. However,
                some have struggled to meet the quality assurance/quality control standards for
                covert audits for newer technology vehicles, particularly OBD-equipped vehicles,
                due to the difficulties of setting OBD vehicles to fail an I/M test. Some State
                officials told us that either the requirements should be changed or EPA should
                provide further guidance on how to perform covert audits. Appendix F provides
                more details on this issue.

22
  Committee on Vehicle Emission Inspection and Maintenance Programs, Board on Environmental Studies and
Toxicology, Division on Earth and Life Studies, Transportation Research Board, National Research Council,
Evaluating Vehicle Emissions Inspection and Maintenance Programs, 2001.


                                                     24

States Have Made Efforts to Increase Effectiveness of Repairs

          Although our work identified areas for improvement, including the need to track
          the final outcome of failing vehicles, both Maryland and Virginia have made
          efforts to increase repair effectiveness. These efforts encourage effective repairs
          of failing vehicles by providing consumers with information related to repair
          technicians and setting standards for those technicians. Repair of failing vehicles
          is essential to a successful I/M program, since programs will only be effective if
          they can locate high emitters and repair them. As a means to address the need for
          effective repairs, Maryland and Virginia have done the following:

          •	 MDE operates voluntary certification programs for repair facilities and repair
             technicians, and funds extensive training for certified technicians. Since
             Maryland does not require motorists to submit repair data except when
             applying for a waiver, it does not track repair facility success rates. MDE
             requires three ASE (Automotive Service Excellence) certifications for their
             certification program, including the advanced engine performance specialist
             certification. There are 225 certified stations with about 500 Master Certified
             Emissions Technicians in Maryland. Certified stations are promoted by MDE
             and provided incentives, such as the ability to advertise their repair services at
             State stations and on the MDE Website. MDE also provides certified repair
             facilities in Maryland with the latest information about repair problems or
             issues with certain vehicle makes/models. MDE provides this information
             through materials such as the Motor Information Systems, “OBD Drive Cycle
             Guide,” and news/technical bulletins.

          •	   VA DEQ also operates a certified repair technician program. To facilitate
               motorists getting proper repairs, VA DEQ provides a listing of certified repair
               technicians, along with a locator, on its Website. In the near future, it also
               plans to include repair information, including costs, for owners whose
               vehicles need repairs. Further, VA DEQ implemented a remote sensing
               program in May 2006 that utilizes repair assistance. Repair assistance can
               assist low-income owners in getting needed repairs for vehicles identified as
               high emitters by the remote sensing program.

Conclusions
          Vehicles that are poorly maintained or have malfunctioning emission controls are
          significant contributors to air pollution, especially in major urban areas. As such,
          it is important that EPA ensures that I/M programs demonstrate that they are
          using the test methods they committed to use in their SIPs, testing all vehicles that
          should be tested, not exceeding their waiver rates, and ensuring that failed
          vehicles are effectively repaired. Under the SIP process, States have flexibility in
          deciding the extent of emissions reductions that will be achieved from various
          sources, including on-road mobile sources. States need to demonstrate that their
          I/M programs are obtaining emissions reductions equal to or better than the


                                            25

        performance standard for the program before their I/M programs can be
        incorporated into an approved SIP. However, once approved by EPA, these SIPs
        become requirements. Failing to meet the vehicle I/M program requirements may
        mean that States will have to place greater requirements on other emission
        sources, such as industrial facilities where emissions are more readily measured,
        to achieve State clean air attainment goals.

        By ensuring that emissions controls are functioning properly, I/M programs are a
        key component of EPA as well as State and local strategies for addressing mobile
        source pollution in major urban areas. Early indications are that this is also an
        important issue for OBD-equipped vehicles, as these OBD vehicles are just now
        starting to operate past the 8-year/80,000 mile warranty period for major
        emissions control components. Despite some implementation problems, States
        have achieved emissions reductions from mobile sources. Maryland and Virginia
        both reported significant reductions in mobile source emissions despite substantial
        increases in vehicle miles traveled. According to I/M program officials in these
        States and at EPA, vehicle I/M programs have been a significant part of these
        reductions.

Recommendations
        We recommend that the Assistant Administrator for Air and Radiation work with
        EPA Region 3 to:

        2-1 	   Ensure that the District of Columbia I/M program (a) restores IM240
                testing as required by its SIP; and (b) continues to work with the District
                to ensure it repairs its data issues and provides accurate and reliable
                reporting in the future.

        2-2 	   Require that the Maryland I/M program (a) achieve the waiver rate in its
                approved SIP, or continue to work with EPA to adjust the Maryland SIP
                and related emissions credits to reflect their actual waiver rate; and (b)
                adjust its waiver limit for inflation as required by the Clean Air Act
                Amendments of 1990, Section 182 (3)(C)(iii), or seek a variance from
                EPA to adjust its SIP and related emissions credits to reflect the loss in
                emissions credits from the non-inflationary adjusted waiver limit.

        We recommend that the Assistant Administrator for Air and Radiation encourage
        EPA regions and the States to:

        2-3 	   Follow up on vehicles with no known final outcome to a degree
                proportional to the problem, using mechanisms such as a memorandum to
                regions to encourage States to: (a) develop VIN-based vehicle databases
                for vehicles failing I/M tests with no known final outcome, and
                (b) establish reciprocity agreements allowing the sharing of such data
                among and between I/M programs.



                                         26

Agency Comments and OIG Evaluation

         The Agency generally agreed with Recommendations 2-1 and 2-2 and responded
         that, as a general matter, OIG's findings do not contradict the OTAQ's experiences
         with regard to the vehicle I/M program. The Agency did not concur with our
         original Recommendation 2-3, stating that it lacked the legal authority and
         resources to act on this recommendation. We agree with the Agency’s proposed
         actions for Recommendations 2-1 and 2-2, and we revised Recommendation 2-3
         based on the Agency’s comments. We believe that it is important for the Agency
         to encourage States with a significant number of vehicles with no known final
         outcome to follow up on these vehicles and for the Agency to encourage other
         States to assist in this effort.

         The Agency also provided technical comments related to Chapters 1, 2, and 3 of
         the report. We made changes based on these comments as appropriate. The
         Agency’s complete written response is in Appendix J. Our evaluation of those
         comments is in Appendix K.

         We also provided copies of our draft report to the District of Columbia, Maryland,
         and Virginia I/M programs. We received comments from all three programs.
         Virginia and the District generally agreed with our findings. The District also
         provided us with copies of the I/M reports that they provided to Region 3
         subsequent to issuance of our draft report. We revised the report to reflect this
         subsequent information. Maryland provided comments to the draft report and we
         made changes to address its comments as appropriate. Appendix L provides a
         summary of the responses from the District of Columbia, Maryland, and Virginia
         I/M programs and our analysis of their responses.




                                         27

                               Chapter 3
 Increased EPA Oversight and Technical Assistance
          Needed for Vehicle I/M Programs

          Our nationwide survey of all 10 EPA regions, as well as our detailed work in
          Region 3, indicated that EPA has not been obtaining sufficient information to
          ensure that poorly performing vehicles are identified and, when identified,
          effectively repaired. EPA has exercised limited oversight over I/M programs, has
          not held I/M programs accountable for meeting commitments, and has not
          provided sufficient technical assistance. Most EPA regions did not always obtain
          required I/M reports and, in some cases, even know whether they were submitted.
          As required by Title 40, Code of Federal Regulations, Section 51.366, I/M reports
          are necessary to determine whether I/M programs are meeting their SIP
          commitments. Also, EPA regions only audited/evaluated 9 of the 34 I/M
          programs, and reduced resources for overseeing and assisting I/M programs. As a
          result, EPA does not have reasonable assurance that emission reductions claimed
          by some I/M programs have been achieved, even though I/M programs are a key
          component of EPA’s overall strategy for controlling vehicle emissions in major
          urban areas. Although I/M programs are implemented by State and local
          agencies, EPA oversight and technical assistance are important in ensuring
          program effectiveness.

Survey of EPA Regions Suggests Limited Oversight of I/M Programs
          We surveyed all 10 EPA regions to obtain information on each State I/M
          program, as well as the information available to EPA regarding I/M program
          effectiveness. This included background information for each program (program
          type, test type, testing frequency, enforcement type, and basic program history);
          whether States submitted required reports from 1999 to 2005; whether the region
          had audited or evaluated the programs since 1999; and whether the regions
          allocated sufficient resources to oversee I/M programs. We also requested similar
          budgeting and staffing information from OTAQ. Based on the responses to our
          survey covering all 34 I/M programs, we found that:

             •	 EPA regions received the required reports in a timely manner for only
                11 programs;
             •	 EPA regions did not receive the required reports for 8 of the programs;
             •	 EPA regions were unsure whether required reports were submitted for
                6 programs;
             •	 EPA regions had not performed audits/evaluations of 25 of the programs;
                and
             •	 EPA reduced the level of resources devoted to overseeing and assisting
                I/M programs.


                                          28

          According to EPA officials, their attention had largely focused on approving SIPs
          and ensuring proper start-up of State I/M programs, with less emphasis on the
          day-to-day oversight of whether I/M programs operated effectively. The
          following sections discuss what we learned from the responses to our survey and
          discussions held with OTAQ, regions, and States. Appendix I lists the oversight
          questions we asked in our survey of the 10 EPA regions.

Mixed Results in Obtaining Annual Reports
          To evaluate the performance of I/M programs, EPA’s I/M regulations call for
          EPA to obtain and analyze I/M reports. According to Title 40, Code of Federal
          Regulations, Section 51.366, Subpart S: Inspection and Maintenance
          Requirements:

                  Data analysis and reporting are required to allow for monitoring
                  and evaluation of the program by program management and EPA,
                  and shall provide information regarding the types of program
                  activities performed and their final outcomes, including summary
                  statistics and effectiveness evaluations of the enforcement
                  mechanism, the quality assurance system, the quality control
                  program, and the testing element.

          EPA requires the following four key reports to be submitted from authorized I/M
          programs:

             	   Annual Test Data Report: Number of vehicles tested by model year and
                  type, failure rates, pass rates for retest, waiver rates, and vehicles with no
                  known outcome.

             	   Annual Quality Assurance Report: Number of testing lanes in
                  operation receiving overt and covert audits, and results of these audits.

             	   Annual Quality Control Report: Number of equipment audits by station
                  and lane, number and percentage of stations that failed equipment audits,
                  and number and percentage of stations and lanes shut down as a result of
                  equipment audits.

             	   Annual Enforcement Report: Compliance information for various types
                  of enforcement programs operated by States (registration denial, computer
                  matching, and sticker-based enforcement programs).

          Regions responded that, in the last 5 years (1999-2004), 11 of the 34 I/M
          programs submitted timely reports, 14 programs had either never submitted the
          required reporting or the regions were unsure whether the reports were submitted,
          and 4 programs submitted reports but they were not timely (typically 1-2 years
          late in the region we examined). The remaining 5 programs had mixed results


                                            29

               (some reports from these programs were submitted timely but some reports were
               not received). Appendix G provides details on the 34 I/M programs. Chart 3-1
               summarizes EPA regional responses regarding these required reports.

              Chart 3-1: Responses from Regions Regarding Key I/M Reports Received, 1999-2004



               100%


                90%
                              23%
                                                     29%                                                 29%
                                                                                31%
                80%


                70%
                              17%

                                                     20%
                60%                                                                                      23%
Percentages




                                                                                23%                                     Never Received
                                                                                                                        Uncertain
                50%           20%
                                                                                                                        Late
                                                     14%                                                                Timely
                                                                                                         14%
                40%                                                             11%


                30%


                20%           40%
                                                     37%
                                                                                34%                      34%

                10%


                 0%
                        Test Data Reports   Quality Control Reports   Quality Assurance Reports   Enforcement Reports
                                                            Required Reports


               Source: OIG analysis of EPA regions’ responses to OIG survey



               We followed up with some of the regions to inquire about why these reports were
               not received. One region noted that resources were limited. Another region noted
               that, over time, they have developed working relationships with I/M program staff
               that they believe are appropriate considering the type of I/M program operated.
               Three regions asserted that while I/M data reporting is important, they believe
               keeping in regular contact with States on specific program implementation is
               equally beneficial. While maintaining close contact with the individual I/M
               programs may be informative, we believe the required reporting is necessary to
               provide EPA with the data and information that can be analyzed to assure that
               individual programs are functioning effectively. These reports are also required
               by EPA regulations, and the CAA provides EPA with various mechanisms to
               ensure achievement of State I/M program SIP commitments, including sanctions.
               Additionally, as noted in Chapter 2, these reports provided important information
               regarding the operation of the I/M programs we reviewed and identified issues
               that should have been addressed earlier.




                                                        30

Some Regions Did Not Perform Audits/Evaluations or
Assess Data Completeness of Vehicle I/M Programs
          Regional offices indicated that from 1999 to 2004 they performed audits and/or
          program evaluations of only 9 of the 34 Vehicle I /M programs. While two
          regions (2 and 7) had conducted audits/program evaluations and assessed the
          completeness of the data provided by State programs, three regions (3, 5, and 10)
          acknowledged they had not assessed the completeness and accuracy of their State
          vehicle I/M data or performed audits/program evaluations. We also had concerns
          about potential incongruities in some regional responses to our survey. For
          example, two regions (1 and 8) said they assessed the completeness and accuracy
          of their State data by reviewing reports submitted; however, these regions also
          responded that they never received some of those reports or were unsure if some
          of the reports were ever received. Appendix H provides details on EPA regions’
          audits and/or program evaluations of the 34 vehicle I/M programs.

          We inquired about why some of the regions did not assess data accuracy, as well
          as how the data could be assessed and the programs evaluated if the required
          reports were not submitted. Details on some of the responses follow:

             •	 Regions 1 and 5 said that EPA’s not formally auditing I/M programs
                should not be confused with not evaluating them. These regions indicated
                they are in regular and close contact with State officials regarding their
                emission testing programs, and they work proactively to help resolve
                issues as they arise and ensure programs work as expected.

             •	 Region 3 officials explained that they have not attempted to assess the
                accuracy of the data submitted as part of States’ required I/M data
                summary reports, and indicated that as the State programs matured they
                generally expected less, not more, oversight to be necessary. They noted
                that Region 3’s available I/M resources were focused on implementing
                and approving State programs and adding OBD checks to the I/M
                program. Their focus on these activities, coupled with shifting program
                priorities, has forced the region to reduce its I/M oversight role. They
                further responded that incomplete and missing reports have been noted
                internally, but they have not yet made appreciable efforts to rectify the
                deficiencies. The region noted it has not performed an audit/evaluation of
                their States’ I/M programs since 1993.

             •	 Region 6 responded that conducting independent audits/evaluations has
                not been a national priority for EPA regions; therefore, limited resources
                have not been focused on conducting audits/evaluations of I/M programs.

             •	 Region 9 said that since its oversight abilities were limited, the region did
                not want to initiate an audit of any State I/M programs without strong
                reasons.


                                          31

          When EPA is not reviewing required I/M reports, assessing data accuracy and
          completeness, and evaluating programs, it is not ensuring that State I/M programs
          are operating effectively, meeting their commitments, and achieving the emission
          reductions committed to in their SIPs.

Decreased Level of Technical Assistance and Support
          In addition to limited oversight, EPA has not provided the level of technical
          assistance and support desired by State and local agencies, which can also hamper
          I/M Program effectiveness. Twenty-eight States/jurisdictions have expressed a
          desire for increased technical support and guidance from EPA on a national level.
          States, with the assistance of STAPPA/ALAPCO, put together a list of priorities
          they would like to have addressed by OTAQ. Among the priorities were:

             •	 Updating OBD implementation auditing guidance, including the need for
                effective covert auditing guidance. As noted in Appendix F, this is needed
                to enable States to satisfy the SIP requirements regarding vehicle I/M
                programs.

             •	 Direct, continuous EPA support for OBD I/M technical issues.

             •	 Updating I/M OBD program evaluation guidance to help States conduct
                effective evaluations. The States have relied on this guidance, so they
                could be confident in the quality and design of their I/M programs and
                may claim sufficient emission reductions in fulfilling their SIPs.

          Through STAPPA/ALAPCO, 11 programs listed I/M program evaluations as a
          concern, including whether there will be specific training available for OBD. For
          example, Maryland officials said they needed guidance from EPA on how to
          quantify the emissions reductions obtained from OBD testing. OTAQ officials
          told us that due to competing demands and limited resources, further technical
          support to address STAPPA/ALAPCO’s priorities has been unavailable.

          Until 2005, a Federal Advisory Committee Act (FACA) workgroup provided a
          forum for I/M programs to share information; however, EPA ended this
          workgroup after 6 years since its purpose had been met. The FACA workgroup
          was charged with completing specific work related to the implementation of OBD
          testing. The workgroup advised EPA on best practices for implementing OBD
          I/M. Participants on the FACA workgroup also participated in the on-going
          bi-monthly conference calls headed by EPA staff with representation from States,
          shared information on OBD technology issues, and allowed participants to ask
          technical questions concerning tampering and fraud. States explained that
          without these workgroup conferences, communication with EPA has been
          hampered and they have begun to question EPA’s commitment to solving OBD
          implementation problems. One State official noted that the face-to-face quarterly




                                          32

                   workgroup meetings are irreplaceable. They further explained that since
                   disbanding the workgroup, there has been little contact with OTAQ.

                   The Agency provided documentation of recent agreements that it made with
                   States in response to our draft report. EPA and STAPPA/ALAPCO co-sponsored
                   an “I/M Summit” in Washington, DC, on May 16, 2006. The purpose of this
                   summit was to discuss many of the State concerns referenced. In followup to that
                   meeting, on June 30, 2006, the OTAQ Director wrote to STAPPA/ALAPCO
                   representatives, affirming support for State I/M programs as well as EPA's
                   commitment to establish a FACA workgroup on "bridging" I/M programs to the
                   future. That letter was followed on July 21, 2006, by a more detailed letter from
                   the director of OTAQ's Transportation and Regional Programs Division listing
                   numerous action items OTAQ had agreed to pursue in support of I/M. Among
                   those commitments, OTAQ agreed to:

                       •	 Continue   to facilitate bi-monthly conference calls of I/M States to discuss
                           technical issues arising from the implementation of local I/M programs, with
                           a specific emphasis on sharing solutions to technical challenges that have
                           arisen in more than one State;

                       •	 Update     Appendix D of the OBD Implementation Guidance;

                       •	 Share   information with the States regarding technical service bulletins,
                           recalls, and other relevant enforcement actions with a direct bearing on I/M
                           program implementation, as appropriate; and

                       •	 Review  suspected OBD defeat devices and refer to EPA’s Office of
                           Enforcement and Compliance Assurance for possible enforcement action.

EPA Reduced Resources for I/M Oversight

                   Budget and staffing information from OTAQ and the 10 EPA regions shows that
                   EPA reduced the level of resources devoted to overseeing and assisting I/M
                   programs from 1999 to 2005. Table 3-1 shows the Full-Time Equivalent (FTE)
                   resources EPA allocated to I/M programs since 1999.

Table 3-1: Allocated FTEs for OTAQ and Each Regional Vehicle I/M Program, 1999 to 2005
Fiscal                                             EPA Region
 Year     OTAQ       1       2      3      4       5        6        7       8       9        10      Total a
1999         7.0       2        2       3.0    0.5    <1       1      <1     .25     0.4     .05          18.2
2000         7.0       2       1.7      2.5    0.5    <1       1      <1     .25     0.5     .05          18.0
2001         7.0       2       1.5      2.5    0.5    <1       1      <1     .25     0.4     .05          17.2
2002         6.0       2       1.3      1.5    0.5    <1       1      <1     .25     0.4     .05          15.0
2003         4.0       2        1       1.0    0.5    <1       1      <1     .25     0.4     .05          12.2
2004         4.0       1        1       <1     0.4    <1       1      <1     .25     0.4     .05          11.1
2005         3.0       1        1       <1     0.4    <1       1      <1     .25     0.4     .05          10.1
a
    Rounded to nearest 0.1
Source: Agency responses to OIG survey of all EPA regions and OTAQ



                                                      33

         OTAQ officials said the number of FTEs dedicated to I/M program
         implementation has decreased since 2001 as I/M programs matured, thereby
         requiring fewer resources. They said that, initially, when the programs began,
         significant resources were needed to provide technical support and outreach to the
         States. However, by the end of 2003, they said a significant number of States had
         successfully incorporated OBD testing into their I/M programs. They noted that
         these programs then served as a template for the remaining programs. Now that
         most I/M programs are considered mature, they said that fewer Federal resources
         are needed to support them.

Conclusions
         Although vehicle I/M programs are implemented by State and local agencies,
         EPA oversight and technical assistance are important in ensuring program
         effectiveness. Our work suggests that EPA needs to give these programs greater
         attention. Some regions did not obtain the required I/M program reports from
         their States nor did they fully analyze the data or evaluate the programs. Further,
         many States have not received the technical assistance and support they believe
         they needed to achieve program goals. While there have been competing
         priorities for resources at EPA, we believe obtaining and analyzing key I/M
         program data is important to ensure that the programs are operating effectively
         and achieving the I/M program commitments in their SIPs. Absent such oversight
         and assistance, the effectiveness of some vehicle I/M programs may be uncertain.

Recommendations
         We recommend that the Assistant Administrator for Air and Radiation work with
         EPA regions to:

         3-1    Ensure that all State vehicle I/M program requirements are met, including
                the key reporting required by Title 40, Code of Federal Regulations, Part
                51.366.

         3-2    Evaluate vehicle I/M reports and other available information to determine
                whether the programs are operating effectively, including demonstrating
                that they achieved the emissions reductions committed to in SIPs.

         3-3    Determine whether vehicle I/M programs are using appropriate tests,
                collecting reliable data, and meeting waiver rates committed to in SIPs.

         3-4    Follow up with States on significant issues identified during regional
                analysis of State reporting and work with these States to correct these
                issues, as needed.

         3-5    Use the mechanisms provided under the CAA to ensure achievement of
                State vehicle I/M program SIP commitments, or require States unable to


                                         34

                do so to revise their SIP commitments to reflect the actual I/M program
                operations.

         We also recommend that the Assistant Administrator for Air and Radiation work
         with OTAQ to:

         3-6	   Continue to provide technical leadership and guidance to States and
                regional offices to address OBD implementation issues, including
                updating OBD I/M implementation guidance, and providing technical
                assistance to I/M programs to help resolve OBD I/M issues using
                mechanisms such as bi-monthly conference calls and the planned FACA
                workgroup.

Agency Comments and OIG Evaluation
         EPA generally concurred with our recommendations. The Agency stated that it is
         encouraged to see that many of our recommendations are consistent with
         commitments the Agency has already made as part of a May 16, 2006, summit on
         I/M program issues, which was attended by OTAQ and representatives from over
         25 I/M States. OTAQ also followed up that meeting with two letters affirming
         support for State I/M programs as well as EPA's commitment to establish a FACA
         workgroup on "bridging" I/M programs to the future, and listed numerous action
         items that OTAQ agreed to pursue in support of I/M programs. The Agency also
         responded that it is pleased to see that the OIG affirms the evolving but continued
         importance of I/M programs as a means by which State and local agencies attain
         and maintain their air quality goals and protect public health. We are encouraged
         by the recent commitments made by OTAQ and the States. Information has been
         added in Chapter 3 related to the May 2006 “I/M Summit,” and the June and July
         2006 followup letters from OTAQ to STAPPA/ALAPCO. We have also
         modified Recommendation 3-6 based on these events.

         The full Agency response is in Appendix J. Our evaluation of those comments is
         in Appendix K.




                                         35

                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                                   POTENTIAL MONETARY
                                                       RECOMMENDATIONS                                                              BENEFITS (in $000s)2

                                                                                                                       Planned
     Rec.    Page                                                                                                     Completion   Claimed     Agreed To
     No.      No.                           Subject                             Status1        Action Official           Date      Amount       Amount

     2-1       26    Work with EPA Region 3 to ensure that the District           O         Assistant Administrator
                     of Columbia I/M program (a) restores IM240 testing                      for Air and Radiation
                     as required by its SIP, and (b) continues to work
                     with the District to ensure it repairs its data issues
                     and provides accurate and reliable reporting in the
                     future.
     2-2       26    Work with EPA Region 3 to require that the                   O         Assistant Administrator
                     Maryland I/M program (a) achieve the waiver rate                        for Air and Radiation
                     in its approved SIP, or continue to work with EPA
                     to adjust the Maryland SIP and related emissions
                     credits to reflect their actual waiver rate; and (b)
                     adjust its waiver limit for inflation as required by the
                     Clean Air Act Amendments of 1990, Section
                     182 (3)(C)(iii), or seek legal variance from EPA to
                     adjust its SIP and related emissions credits to
                     reflect the loss in emissions credits from the non
                     inflationary adjusted waiver limit.
     2-3       26    Encourage EPA regions and the States to follow up            O         Assistant Administrator
                     on vehicles with no known final outcome to a                            for Air and Radiation
                     degree proportional to the problem, using
                     mechanisms such as a memorandum to regions to
                     encourage States to: (a) develop VIN-based
                     vehicle databases for vehicles failing I/M tests with
                     no known final outcome, and (b) establish
                     reciprocity agreements allowing the sharing of such
                     data among and between I/M programs.
     3-1       34    Work with EPA regions to ensure that all State               O         Assistant Administrator
                     vehicle I/M program requirements are met,                               for Air and Radiation
                     including the key reporting required by Title 40,
                     Code of Federal Regulations, Part 51.366.

     3-2       34    Work with EPA regions to evaluate vehicle I/M                O         Assistant Administrator
                     reports and other available information to                              for Air and Radiation
                     determine whether the programs are operating
                     effectively, including demonstrating that they
                     achieved the emissions reductions committed to in
                     SIPs.
     3-3       34    Work with EPA regions to determine whether                   O         Assistant Administrator
                     vehicle I/M programs are using appropriate tests,                       for Air and Radiation
                     collecting reliable data, and meeting waiver rates
                     committed to in SIPs.

     3-4       34 	 Work with EPA regions to follow up with States on             O         Assistant Administrator
                    significant issues identified during regional analysis                   for Air and Radiation
                    of State reporting and work with these States to
                    correct these issues, as needed.


1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress
2	   Identification of potential monetary benefits was not an objective of this evaluation.




                                                                                      36

                                                                                                                                POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                             BENEFITS (in $000s)2

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed     Agreed To
    No.      No.                           Subject                          Status1          Action Official          Date      Amount       Amount

    3-5       34    Work with EPA regions to use the mechanisms                O         Assistant Administrator
                    provided under the CAA to ensure achievement of                       for Air and Radiation
                    State vehicle I/M program SIP commitments, or
                    require States unable to do so to revise their SIP
                    commitments to reflect the actual I/M program
                    operations.
    3-6       35    Work with OTAQ to continue to provide technical            O         Assistant Administrator
                    leadership and guidance to States and regional                        for Air and Radiation
                    offices to address OBD implementation issues,
                    including updating OBD I/M implementation
                    guidance, and providing technical assistance to I/M
                    programs to help resolve OBD I/M issues using
                    mechanisms such as bi-monthly conference calls
                    and the planned FACA workgroup.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress
2   Identification of potential monetary benefits was not an objective of this evaluation.




                                                                                   37

                                                                                                      Appendix A

                     Details on Scope and Methodology
To assess whether selected enhanced I/M programs have been effective in identifying poorly
performing vehicles, and ensuring they are adequately repaired and emission reductions
achieved, we obtained and analyzed State reports received by EPA Region 3 from 2001 to 2004.
We did this to determine whether Region 3 States were complying with I/M reporting
requirements. We analyzed whether States identified significant issues in these reports, such as
high rates of reported vehicles with no known final outcome and waivers. We also compared
information in these reports with EPA-approved SIP requirements. Within Region 3, we focused
on three programs (Maryland, Virginia, and District of Columbia) for a more in-depth review.
These three programs collectively address vehicle pollution for the Washington, DC major
metropolitan area. We performed site visits and conducted detailed reviews in Maryland and
Virginia. We interviewed key vehicle I/M personnel in Maryland, Virginia, and the District of
Columbia.

Region 3 and the District of Columbia metropolitan area were chosen for our case study because
of several factors, including that the Washington, DC area was one of three areas (Atlanta,
Georgia; Baton Rouge, Louisiana; and Washington, DC) elevated from “serious” to “severe”
nonattainment because of its failure to attain the 1-hour standard by 1999, as discussed in a prior
OIG report.23 We also wanted to focus on States that operated enhanced programs in serious or
higher nonattainment areas where emissions from mobile sources were a significant contribution.
The Washington, DC area also provided the opportunity to review various types of programs
(such as centralized and decentralized programs and different testing methods).

For Maryland and Virginia, we conducted tests in accordance with the Government
Accountability Office Guidance Document GAO-03-273G - Assessing the Reliability of
Computer-Processed Data, as defined in Section 6: Taking the First Steps, Performing Initial
Testing. For Maryland, there were not a significant number of errors found during initial testing.
Similarly for Virginia’s data, we found that the initial testing of data to be sufficiently reliable.
As a result, we decided that both sets of data were reliable enough to use for our evaluation of
whether initially failed vehicles were effectively repaired. We did identify that we could not rely
on the mileage included in the Maryland data to assess vehicle miles traveled for vehicles that
were re-tested. This occurred because the data was in thousands of miles and not always
recorded accurately by the vehicle inspectors. For example, the mileage for the retest was
inconsistent: sometimes greater than, sometimes the same as, and at times lower than the first
test.

In our discussions with the District of Columbia’s Air Quality Division personnel, the I/M
program staff noted that the District of Columbia’s vehicle inspection program had recently
faced equipment and database problems. Because of the database and equipment problems, we

23
   EPA OIG Report No. 2004-P-00033, EPA and States Not Making Sufficient Progress in Reducing Ozone Precursor Emissions
In Some Major Metropolitan Areas, dated September 29, 2004.




                                                          38

determined that a detailed review of the District of Columbia’s I/M data would not provide us
with sufficiently adequate information to perform analyses similar to what we performed in
Maryland and Virginia. In lieu of these analyses, we confirmed key information from the
District’s reports through interviews sufficient for us to understand the current status of the
program. We included general information in the report related to annual reports for the District
of Columbia that the District provided after the completion of our field work.

To determine whether EPA’s oversight has ensured that enhanced I/M programs are achieving
program goals in a timely manner, we developed and administered a Lotus-based survey to all
regions. The survey was initially field-tested in Region 3 and discussed with OTAQ.
Information gathered included 25 questions relating to the information regions would need to
effectively oversee delegated I/M programs. This included background information for each of
the 33 States and the District of Columbia with I/M programs (year program began, type of
program, testing type and frequency, and enforcement type). Additionally, we asked whether
States have submitted the key required reports from 1999 to present, and whether the Region has
audited/evaluated the programs since 1999. Questions about regional staffing and other
information on I/M program effectiveness were also solicited. Responses received related to
EPA’s oversight are summarized in Appendices G and H. The information obtained was not
independently verified by OIG and some of the information may be used for future OIG
evaluations.

Our work contained the following limitations: we did not evaluate the effectiveness of stationary
and area source emission reduction efforts; we did not address the ozone transport issue; and we
only looked at fleet turnover as it related to the scope and objectives of this evaluation. Our
evaluation was limited to only a general overview of regions other than Region 3.

To gain knowledge of the EPA’s vehicle I/M Program’s design and its associated enforcement,
we reviewed policy and guidance documents, including:

    Federal Register Criteria, Title 40, Code of Federal Regulations, Parts 51.350 to 51.373,
     including Part 51.366 - EPA Guidance on State Annual and Biennial Reporting
    Sections 182 (c) and 184 requirements of the 1990 CAA Amendments for enhanced I/M programs
    Office of Air and Radiation’s Final Strategic Plan for 2006-2008
    National Highway Designation Act of 1995
    Vehicle I/M policy documents provided by OTAQ
    SIPs for Region 3 Selected States’ (District of Columbia, Maryland, and Virginia [combined]),
     I/M portion only, to review waiver rates, compliance rates, model years tested, types of tests, and
     mobile source contribution to emission reductions
    Region 3 State reports:
          o Delaware (2001 and 2004)
          o District of Columbia (2001, 2003, and 2004)
          o Maryland (2003 and 2004)
          o Virginia (2002, 2003, and 2004)
          o Pennsylvania (2002, 2003, and 2004)


We also reviewed the Websites of the Region 3 States with vehicle I/M programs (Maryland,
Virginia, Delaware, and Pennsylvania, plus the District of Columbia); and various Websites for
EPA, the Government Accountability Office, and State environmental agencies. We also did


                                                   39

Website reviews of external stakeholder sites to gather background information and details on
pertinent studies. We obtained the status of State I/M programs from OTAQ.

We interviewed staff in the following offices:

    Environmental Protection Agency:
         • OTAQ
         • Region 3 Office of Air Programs
         • Survey to all 10 Regions and e-mailed followup questions, as needed 

    Maryland Department of the Environment: Air & Radiation Management Administration - Mobile 

     Sources Control Program

    Maryland Department of Transportation: Maryland Motor Vehicle Administration and its Vehicle 

     Emissions Inspection Program Contractor 

    Virginia Department of Environmental Quality: Mobile Source Operations Section 

    District of Columbia: Department of Health, Regulatory Affairs Section 




We reviewed relevant reports, including:

 Environmental Protection Agency
     Evaluation of On Board Diagnostics for Use in Detecting Malfunctioning and High Emitting
        Vehicles (August 2000 – EPA 420-R-00-013)
     Analyses of the OBDII Data Collected From the Wisconsin I/M Lanes (August 2000 – EPA 420
        R-00-014)
     Effectiveness of OBDII Evaporative Emission Monitors – 30 Vehicle Study (Revised October
        2000 – EPA 420-R-00-018)
     Summary and EPA Response to the National Research Council Report, “Evaluating Vehicle
        Emissions Inspection and Maintenance Programs” (2001)
 EPA Office of Inspector General 

     Final Report of Audit on the Vehicle Inspection/Maintenance Program (1991- Report Number 

        E1KAFO-03-0269-1100359) 

 Government Accountability Office
     EPA’s Inspection and Maintenance Program-Limited New Data on Inspection and Maintenance
       Program’s Effectiveness (1996 - GAO/RCED-96-63)
     Inspection and Maintenance Contracts and Grants (1996 - GAO/RCED-96-250R)
    	 Environmental Protection Agency: New Motor Vehicles and New Motor Vehicle Engines Air
       Pollution Control: Voluntary Standards for Light- Duty Vehicles; Final Rule (1997 -GAO/OGC
       97-45 )
     Air Pollution-Limitations of EPA’s Motor Vehicle Emissions Model and Plans to Address Them
       (1997- GAO/RCED-97-210)
     Environmental Protection Agency: Control of Emissions of Air Pollution From Highway Heavy-
       Duty Engines (1997- GAO/OGC-98-9)
     Motor Vehicles Inspection Programs - Delays in Motor Vehicle Inspection Programs Jeopardize
       Attainment of the Ozone Standard (1998- GAO/RCED-98-175)
     EPA: Control of Air Pollution from New Motor Vehicles–Tier 2 Motor Vehicle Emissions
       Standards and Gasoline Sulfur Control Requirements (2000 - GAO/OGC-00-22)
    	 Environmental Protection Agency: Control of Emissions of Air Pollution from 2004 and Later
       Model Year Heavy-Duty Highway Engines and Vehicles; Revision of Light-Duty On-Board
       Diagnostics Requirement (2000 - GAO/OGC-01-7)
    	 Environmental Protection Agency: Control of Air Pollution from New Motor Vehicles: Heavy-Duty



                                                 40

        Engine and Vehicle Standards and Highway Diesel Fuel Sulfur Control Requirement (2001 -
        GAO-01-338R)
 National Academy of Sciences
         National Research Council Report - Evaluating Vehicle Emissions Inspection and Maintenance
         Programs (2001- ISBN 0-309-07446-0)


To assess internal controls, we reviewed the Office of Air and Radiation’s fiscal year 2004
Integrity Report; the Office of Management and Budget’s Program Assessment Rating Tool for
mobile source standards and certification, and for the air toxics program; and applicable laws and
regulations for the I/M program as noted above. We did not identify internal control
weaknesses.




                                                 41

                                                                                    Appendix B

        Human Health and Environmental Impacts of 

                   Vehicle Emissions

Vehicle emissions can endanger human health, damage crops and forests, damage building
materials, and impair visibility. Ozone and photochemical smog, benzene, polycyclic aromatic
hydrocarbons, and particulate matter are among the many harmful pollutants generated by
vehicle traffic. Vehicles also produce 21 air toxics, including benzene, 1,3 butadiene, MTBE,
formaldehyde, and acetaldehyde. Health effects from vehicle emissions occur at a range of
levels. Studies have shown that vehicle emissions can have adverse effects on the respiratory
and immune system of individuals in direct contact, and can cause cancer in human beings.
While many inhaled pollutants have direct respiratory consequences, others affect the heart or
nervous system. Prolonged exposure to vehicle emissions can result in a significant increase in
mortality and morbidity. There is a statistical relationship between chemical constituents in
gasoline vehicle exhaust and toxicity, and some studies suggest that roadside air pollution can
cause DNA damage through the addition of these polluting chemicals to the DNA structure.

Although emissions of the six criteria pollutants (sulfur dioxide, nitrogen dioxide, CO, ozone,
fine and coarse particulate matter, and lead) have decreased in the United States over the last
three decades, approximately half of U.S. citizens still live in nonattainment areas for one or
more of the six criteria pollutants (see map below).

                 Number of National Ambient Air Quality Standards Pollutants
                 by County at Nonattainment Levels, as of May 2003




                 Source: EPA

In major urban areas, concentrations of three criteria pollutants (CO, nitrogen dioxide, and fine
particulate matter [PM-2.5]) are generally greatest on or near high traffic freeways, congested
streets, and confined areas such as tunnels and parking garages. Vehicle emissions in these areas
have high concentrations of pollutants, which can cause the adverse health effects described
above.



                                                 42

                                                                                              Appendix C

         States/Areas that Operated I/M Programs in 2005
 EPA
Region        State                      Program Type                              Enforcement Typea
  1       Connecticut      Decentralized/High Enhanced                  Registration Denial, Computer Matching,
                                                                        Sticker Based
          Maine            Decentralized/OTR Low Enhanced               Sticker Based
          Massachusetts    Decentralized/High Enhanced                  Registration Denial, Computer Matching,
                                                                        Sticker Based
          New Hampshire    Decentralized/OTR Low Enhanced               Computer Matching, Sticker Based
          Rhode Island     Decentralized/High Enhanced                  Registration Denial, Computer Matching,
                                                                        Sticker Based
          Vermont          Decentralized/OTR Low Enhanced               Sticker Based
  2       New Jersey       Centralized /Decentralized/ High Enhanced    Sticker Based
          New York         Decentralized/High Enhanced                  Registration Denial, Computer Matching,
          (Metro)                                                       Sticker Based
          New York         OTR/Low Enhanced                             Registration Denial, Computer Matching,
          (Upstate)                                                     Sticker Based
  3       Delaware         Centralized/Low Enhanced                     Registration Denial
          District of      Centralized/High Enhanced                    Registration Denial
          Columbia
          Maryland         Centralized/High Enhanced                    Registration Denial
          Pennsylvania     Decentralized; Philadelphia High Enhanced,   Sticker Based
                           Pittsburgh Low Enhanced
          Virginia         Decentralized/High Enhanced                  Registration Denial
  4       Georgia          Decentralized/High Enhanced                  Registration Denial
          Kentucky         Centralized/Basic                            Registration Denial
          North Carolina   Decentralized/Basic                          Registration Denial
          Tennessee        Centralized/Basic                            Registration Denial
  5       Illinois         Centralized /High Enhanced                   Computer Matching/Vehicle Registration
                                                                        and Drivers License suspension
          Indiana          Centralized /High Enhanced                   Registration Denial
          Ohio             Centralized/Low Enhanced                     Registration Denial
          Wisconsin        Centralized/High Enhanced                    Registration Denial
  6       Louisiana        Decentralized/Low Enhanced                   Sticker Based
          New Mexico       Decentralized/Basic                          Sticker Based
          Texas            Decentralized/ Low Enhanced                  Registration Denial, Sticker Based
  7       Missouri         Centralized/Basic                            Registration Denial,
  8       Colorado         Denver metro area: enhanced/centralized      Registration Denial
                           Colorado Springs, Fort Collins, Greeley:
                           Basic/ decentralized
          Utah             Davis County: Hybrid decentralized basic     Registration Denial
                           /centralized enhanced
                           Weber/Utah/Salt Lake County: Basic/
                           decentralized
  9       Arizona          Centralized/Basic and High Enhanced          Registration Denial
          California       Decentralized/Basic and High Enhanced        Registration Denial
          Nevada           Decentralized/Basic and Low Enhanced         Registration Denial, Computer Matching
  10      Alaska           Decentralized/Basic                          Registration Denial, Sticker Based
          Idaho            Decentralized/Basic                          Computer Matching
          Oregon           Centralized/Basic                            Registration Denial
          Washington       Centralized/Low Enhanced                     Registration Denial



                                                    43

a
    Enforcement Types:

         Registration Denial – Defined as rejecting an application for initial registration or re-registration
         of a used vehicle (i.e., a vehicle being registered after the initial retail sale and associated
         registration) unless the vehicle has complied with the I/M requirement prior to granting the
         application.

         Sticker Based – Includes the requirement for an easily observed external identifier, such as a
         windshield sticker or license plate tab that shows whether a subject vehicle is in compliance with
         I/M requirements.

         Computer Matching – Use of a database system that is required to demonstrate that the
         enforcement mechanism will swiftly and effectively prevent operation of subject vehicles that fail
         to comply. The system is required to track each vehicle through the steps taken to ensure
         compliance, including; (a) the compliance deadline; (b) the date of initial notification; (c) the dates
         warning letters are sent to non-complying vehicle owners; (d) the dates notices of violation or
         other penalty notices are sent; and (e) the dates and outcomes of other steps in the process,
         including the final compliance date.

Source: OIG analysis based on responses provided by EPA regions to OIG survey




                                                       44

                                                                                                      Appendix D

      Key I/M Terms and Most Common Emissions Tests
Definitions of key I/M terms:

 	   Network types - Basic and enhanced I/M programs can be centralized, decentralized, or a hybrid
      of the two, at the State’s discretion, provided the State can demonstrate through modeling that the
      resulting program meets its relevant I/M performance standard.
 	   Subject fleets - Vehicles registered or required to be registered within the I/M program area

      boundaries and fleets primarily operated within the I/M program area boundaries and belonging to 

      the covered model years and vehicle classes comprise the subject vehicles.

 	   Initial failure rates – Vehicle percentage of initial fails versus total initial inspections.
 	   Waiver rates – Refers to the fraction of vehicles that fail their initial tests but were never fully 

      repaired because the repair cost limit (or some other criterion) has been met.



The following represent the most common types of emission tests (it is important to note that
there are other emissions tests used by States’ I/M programs):

 	   Idle test – Checks HC and CO coming out of the tailpipe when the car is at idle.
 	   TSI test - The two-speed idle test is part of a basic emissions inspection program used in moderate
      or marginal nonattainment ozone areas, and for vehicles that cannot be tested on a two-wheel
      drive dynamometer, such as vehicles equipped with Antilock Braking Systems (ABS) and
      permanent All-Wheel Drive vehicles. Typically, vehicles idle for 30 seconds, and are then
      accelerated to 2500 revolutions per minute for 30 seconds, and then back to idle for 30 seconds. A
      probe, placed in the tailpipe, collects information on the vehicle’s NC, CO, oxygen, and carbon
      dioxide exhaust emissions concentration levels. These concentration levels are measured in a
      four-gas analyzer. Both the idle and TSI tests are examples of unloaded, steady-state tests.
 	   ASM test – Checks HC, NOx, CO, and carbon dioxide coming from the tailpipe while operating the
      engine under load at a specified speed on a treadmill-like device known as a dynamometer. This is
      an example of a loaded-mode, steady-state test. The ASM test is not a single test; rather, there are
      at least three different varieties – the single mode ASM2525 and ASM5015, and the two-mode
      ASM which combines the two single-mode tests into one.
 	   IM240 test – Checks HC, NOx, CO, and carbon dioxide coming from the tailpipe while the car is
      being “driven” on a treadmill. The IM240 was developed to sample emissions for 240 seconds over
      a wide range of operating modes, to help limit the number of false passes and false failures. False
      passes involve passing a vehicle that should fail, and false failures involve failing a vehicle that
      should pass. This test was developed to measure NOx, which previously was not addressed in
      older I/M tests. This is the most accurate, high-technology, tailpipe test because it is based on the
      Federal Test Procedure, the test used to certify new vehicles for production. This is an example of
      a loaded-mode, transient test.
 	   OBD – A system that will use vehicle computers to monitor emission controls. The computer
      triggers a dashboard indicator light when the controls malfunction. This, in turn, alerts the driver to
      seek repairs for the vehicle. Diagnostic systems were required on light-duty vehicles beginning
      with 1996 model years.




                                                        45

Details of high enhanced and low enhanced I/M programs follow:

 	   High enhanced programs typically include some form of dynamometer-based tailpipe 

      testing, evaporative system testing, and OBD testing on vehicles so equipped. As OBD-

      equipped vehicles (Model Year 1996 and newer) begin to dominate the in-use fleet, it is 

      expected that tailpipe testing will be replaced with OBD-only testing.

 	   Low enhanced programs typically include some form of idle testing and are very similar to
      basic I/M programs with the exception that light-duty trucks are also included (as required by
      the CAA).




                                                     46

                                                                                                  Appendix E

       Details of OIG Analysis of Vehicles in Maryland
                that Failed Initial 2003 I/M Test
MDE provided us with data for vehicle I/M tests, including information for vehicles that had
failed their initial vehicle I/M test in 2003. From the data provided in June 2005, we traced what
happened with those vehicles though April 2005. Based on this initial data provided by MDE,
approximately 30 percent (41,769 vehicles24) of the 136,980 initial failures reported for 2003 did
not pass an inspection nor were given a waiver within the January 2003 to April 2005 timeframe
of the data we reviewed. Further, during our field visit to Maryland in September 2005,
Maryland provided us with an analysis of initially failing vehicles, and we considered it during
our data analysis. The latter MDE analysis showed the following results: 12 percent
(16,781vehicles) with no result within 18 months, and 3 percent (4,542 vehicles) that could not
be accounted for anywhere in the system. According to MDE, the 9-percent difference (12,239
vehicles) included vehicles that they did not have a result for, but that they could account for as
still in the system (e.g., extensions, retest, etc.). MDE’s review also included information from
the Maryland Motor Vehicle Administration.

Subsequently, Maryland also provided data from the Maryland Motor Vehicle Administration in
November 2005. We matched this data by VIN number with the data previously provided, and
determined that for 24,726 (18 percent) vehicles, the final outcome was not clear. These vehicles
included the following.

        Table E-1: Number and Percent of Vehicles With Unclear Final Outcomes
                                           Number with                  Percent with
                  Reason              Unclear Final Outcome        Unclear Final Outcome
        No current record for title            7,945                         5.8
        Sold                                   2,234                         1.6
        Office date change                      365                          .3
        Vehicle has been updated                333                          .2
        Wait time on return                     130                           .1
        Other                                    64                           0
        No VIN match found                    13,655                        10.0
        Total                                 24,726                        18.1
        Source: OIG analysis of data provided by Maryland

We also requested explanations for several of the categories shown in their analysis. Maryland
provided the following explanations that we considered during our analysis.

        No current record for title: In the basic look-up function, if the VIN has been retitled,
        or becomes inactive, there will be no title record for the given title. In some of the

24
  MDE’s analysis showed 46,406, or 34 percent, not passing a retest or receiving a waiver (though April 2005 and
before using Motor Vehicle Administration data). While we were not able to completely reconcile these numbers
with MDE, reasons for the variance included that we deleted duplicate VIN numbers and there may have been
differences in how the data was classified. We used our number since it was lower and therefore showed a lower
percentage of vehicles needing additional information related to the final outcome of the vehicle.


                                                       47

       manual look-ups, we did not follow through by manually keying in the VIN to determine
       if it had become inactive or had a new title number/owner.

       Sold: Vehicles that are sold may still be in the area but not yet retitled in Maryland, or
       could subsequently have been registered out of State. Unless the sold vehicles are
       actually retitled in Maryland, there is no way to determine the disposition.

       Office date change: This category is used when a long-past-due vehicle needs to have
       the dates changed to get it back into the system without having to take a makeup test and
       current test on the same date.

       Vehicle has been updated (matched from files without details in Maryland’s analysis):
       These were matched to the files provided to EPA OIG on November 2, 2005. The files
       consist of an echo of the No Show list record, with a code included instructing the
       contractor to delete the record from the No Show list. No data are provided about the
       reason for deleting the record.

       Wait time on return: This category is used when extended test times or equipment
       problems prevent timely completion of the test.

       Other: These are most likely data entry errors, where the entry did not match the list of
       valid codes. It may very well just be a case of only one character being off and it could
       not be matched easily by computer.

For the 13,655 vehicles in Table E-1 with no VIN match, Maryland included a category for
“Vehicles With No Result (passing retest or receiving a waiver), But Are Not on the Current
No-Show List” in the analysis that it provided to us in September 2005. In this analysis,
Maryland also provided information for 20 vehicles that were intended to illustrate how the
vehicle information is manually recorded and tracked, because a breakdown for all of these
vehicles can only be done manually and would be very difficult and time consuming to do for
purposes of this OIG study. Our analysis of the 20 vehicles indicates that the information
provided by Maryland for 12 of the 20 vehicles was sufficient to establish that they were
resolved, and that 8 of the 20 vehicles were not clearly resolved. For the 12 resolved vehicles:

       •	   7 were resolved in a timely manner
       •	   4 vehicle tags were not turned in until several months after they were suspended
       •	   1 had its tags suspended after more than 9 months

For the 8 vehicles that did not have clear resolution:

       •	   3 failed multiple inspections and/or were given extensions and appeared to be driven
            without ever passing a retest – over 18 months after the initial I/M failure
       •	   3 were sold but had not passed any subsequent inspections since the initial failure
       •	   2 did not have sufficient information provided to determine whether the vehicles were
            still in the area




                                                 48

Maryland described the issue of these 13,655 vehicles as a documentation issue. Maryland
responded to our draft report that all 13,655 vehicles were checked manually over time during
the normal course of operations and removed from the no-show list for a valid reason. Maryland
further responded that to recreate this list information for the OIG, it would have to go back and
manually look up each vehicle a second time, which would be a substantial amount of work.
However, as shown above, during our review of the information provided for 20 vehicles, we
found that resolution was not always clear or timely. While many of these vehicles may no
longer be driven in the area or may be retired, this could not be ascertained from the category
descriptions provided. For example, even when tags are suspended, the owner might still drive
the vehicle in the area. In tracing the history of one failed vehicle, Maryland found that:

       This vehicle was being driven on suspended tags from 6/4/04 until the tags were
       turned in (2/25/05), for whatever reason - probably renewal denial. We do not
       send investigators out to pick up tags on VEIP tag suspensions.

Neither the number of these vehicles that are no longer in the area nor the number that may still
be in the area could be determined from the data provided. Maryland acknowledged that, even
when vehicle tags are suspended, the owner might still drive the vehicle in the area. However,
Maryland responded that this problem is broader than any I/M program, e.g., people driving with
stolen/forged tags, suspensions due to insurance violations or traffic violations. It further
responded that Maryland's procedures must be taken and presented in this broader context.




                                                49

                                                                                                   Appendix F

                   Details on Covert Auditing Guidance
States need guidance for how to perform covert audits. Covert audits help ensure that all aspects
of the I/M test are performed adequately. States are required to perform regular covert audits in
their I/M programs; however, there are difficulties in performing covert audits with vehicles set
to fail an emissions tailpipe test. Due to changing vehicle technology, States have requested
Agency guidance in setting vehicles to fail to fulfill the requirements for covert audits through
STAPPA/ALAPCO. Both Maryland and Virginia met most of the requirements for Quality
Assurance and Quality Control programs, including performing extensive overt auditing.
However, while meeting other requirements for covert audits, these States did not perform covert
audits with vehicles set to fail an emissions tailpipe test. Further, the Delaware and District of
Columbia I/M programs did not include the EPA-required Quality Assurance and Quality
Control reports in their annual reporting (see Table 2-3 in Chapter 2).

All vehicle I/M programs are subject to quality assurance and quality control checks using both
overt and covert audits. Such Quality Assurance and Quality Control procedures can identify
possible fraud, incompetence, or other potential problems affecting a program’s effectiveness,
and they provide a strong deterrent to test and/or data manipulation. The review includes
computerized analysis. Key components of overt and covert audits are listed in Table F-1 below.

Table F-1: Components of Overt and Covert Audits
 Overt Audits                                        Covert Audits
 At least two overt audits per test lane must be     Remote visual observation of inspector performance, which
 conducted per year.                                 may include the use of aids such as binoculars or video
                                                     cameras, at least once per year per inspector in high-
                                                     volume stations.
 Tests include equipment audits, checks of           Site visits at least once per year per number of inspectors
 document security, record keeping, licensing and    using covert vehicles set to fail.
 display information.
 Evaluation of the inspector's ability to conduct a  For stations that conduct both testing and repairs, at least
 proper inspection.                                  one covert vehicle visit per station per year including the
                                                     purchase of repairs and subsequent retesting if the vehicle
                                                     is initially failed for tailpipe emissions.
 Checks of document security, record keeping,        Documentation of the audit, including vehicle condition and
 licensing, and display information (Quality Control preparation, sufficient for building a legal case and
 record keeping requirements).                       establishing a performance record.
 Screening or review of inspector and station        Covert vehicles covering the range of vehicle technology
 records is required at least monthly.               groups (e.g., carbureted and fuel-injected vehicles) included
                                                     in the program, including a full range of introduced
                                                     malfunctions covering the emission test, the evaporative
                                                     system tests, and emission control component checks (as
                                                     applicable).
 Process automation requirements, and document       Sufficient numbers of covert vehicles and auditors to allow
 security requirements.                              for frequent rotation of both to prevent detection by station
                                                     personnel.
 Calibration gas specifications.                     Where applicable, access to online inspection databases by
                                                     State personnel to permit the creation and maintenance of
                                                     covert vehicle records.
Source: Title 40, Code of Federal Regulations, Parts 51.359 and Part 51.363.




                                                        50
How overt and covert audits are carried out in Maryland and Virginia is discussed below.

Maryland

Maryland operates a centralized I/M program, which includes overt audits at stations, and
an extensive quality assurance-auditing program. Each test lane undergoes a
comprehensive functional audit twice per month. The lane is audited on an unannounced,
as-is basis (no calibrations are allowed prior to the audit), so auditing is performed under
actual testing conditions. According to Maryland officials, between the twice-monthly
audits and the State Customer Service Representatives (including permanent and rotating
staff), Maryland maintains a significant on-site presence at all stations.

According to Maryland officials, the State built Quality Assurance into their system,
including the following:

       •	 Computer-controlled Quality Assurance/Quality Control checks for all EPA
          required procedures, including analyzer self-calibration every 2 hours.
       •	 The lanes automatically lock out from testing if a quality control check fails or
          is not performed on schedule. Testing cannot be performed until the fault is
          fixed and the quality control check passes.
       •	 Computerized maintenance and repair tracking system that enables the
          contractor to accomplish repairs quickly with appropriate documentation, so
          that testing is resumed as soon as possible, lane maintenance is tracked, and
          trends can be analyzed.
       •	 Testing equipment maintenance technicians employed by the contractor
          undergo a formal training program and are certified by the State upon
          successful completion of an exam. Technicians must undergo periodic
          recertification.
       •	 The State conducts extensive analysis of test data for inconsistencies,
          anomalies, and trends.

However, according to Maryland, the State does not perform covert audits with a vehicle
set to fail (a Title 40, Code of Federal Regulations, Part 51.363 requirement) because the
State has built Quality Assurance into the system, as described above. In 2003, Maryland
reported that covert performance audits were performed at 5 stations, but 14 stations were
not given performance audits. In 2004, covert performance audits were performed at all
19 centralized inspection stations. However, Maryland acknowledged in the 2003 and
2004 data reports to EPA that the State performed no covert audits with vehicles set to
fail. Maryland performed covert audits as deemed necessary in response to reports of
questionable activities in the test lanes.

Virginia

Virginia operates a decentralized I/M program. VA DEQ follows EPA-recommended
quality control measures for overt audits. The State Agency performs four official audits
per station per year (two overt and two gas audits). They audit every waiver during their


                                         51

  visits to the stations. Overt audits are unannounced; equipment, paperwork, and systems
  are checked. To prevent operator fraud, VA DEQ has two computer applications that
  give direct control to the VA DEQ for audits.

  For covert audits, however, VA DEQ only partially assesses the quality of the inspection.
  The State does not test the accuracy of the tailpipe test because it cannot “rig” a vehicle
  to fail the tailpipe test with the consistency necessary to take an enforcement action.
  Instead, the State assesses the quality of the inspection by tampering with a component of
  the vehicle that is required (by State requirements) to be inspected as part of the visual
  inspection, such as the exhaust gas re-circulation unit and the positive crankcase
  ventilation valve.

  The State provided information on covert audits since 1999, and, as shown in Table F-2,
  it identified that more than 37 percent of covert audit tests resulted in a false pass
  (primarily for failure of the inspector to identify a tampered component).

        Table F-2: False-positives in Virginia Covert Audits
                 Year                    Percent                    False Positives
                 1999                      35%                          72/201
                 2000                      22%                          32/143
                 2001                      41%                          93/225
                 2002                      46%                           41/90
                 2003                      31%                           27/88
                 2004                      48%                           33/69
               Average                    37.2%                    816 Covert Audits
        Source: OIG analysis of annual reports submitted by Virginia.

According to VA DEQ, the percentages of reported covert audits resulting in false passing
of vehicles is not representative because inspector turnover is high at the stations and
because VA DEQ targets some of the covert audits (approximately 20-25 percent of the
covert audits) based on reports of suspected activity in the field as recommended by field
officers. The remaining covert audits are random. The State added that they have the
ability to issue compliance actions with a system to follow through with strict penalties and
that these strong enforcement actions can identify those doing a good job or those with poor
testing practices. For example, Virginia’s 2004 report listed:

  •	   9 inspectors and stations that were suspended, fired, or otherwise prohibited from
       testing as a result of covert audits;
  •	   6 that were suspended, fired, or otherwise prohibited from testing for other causes;
       and
  •	   39 that received fines.




                                                 52

                                                                                                                Appendix G

                         Key Reports Received from the
                            34 Vehicle I/M Programs
                                                            Quality             Quality                                 Additional
 EPA                                    Test Data           Control            Assurance          Enforcement           Required
Region              State                Report             Report              Report              Report               Reportsa
  1       Connecticut                   2002 (late)        2002 (late)         2002 (late)         2002 (late)             No
          Maine                           Never              Never               Never               Never                 No
          Massachusetts                 2003 (late)        2003 (late)         2003 (late)         2003 (late)             Yes
          New Hampshire                   Never              Never               Never               Never                 No
          Rhode Island                  2003 (late)        2003 (late)         2003 (late)         2003 (late)             No
          Vermont                         Never              Never               Never               Never                 No
  2       New Jersey                      2004               2004                2004                 2004                 No
          New York (Metro)                2004               2004                2004                 2004                 Yes
          New York (Upstate)              2004               2004                2004                 2004                 Yes
  3       Delaware                      2004 (late)          Never               Never             2004 (late)             No
          District of Columbia          2004 (late)          Never               Never               Never                 No
          Maryland                        2004               2004                2004                 2004                 No
          Pennsylvania                  2004 (late)        2004 (late)         2004 (late)         2004 (late)             No
          Virginia                        2004               2004                2004                 2004                 Yes
  4       Georgia                         2004               2004                2004                 2004                 Yes
          Kentucky                        2004               2004                2004                 2004                 No
          North Carolina                  2004               2004                2004                 2004                 No
          Tennessee                       2004               2004                2004                 2005                 No
  5       Illinois                        Never              Never               Never               Never               Not Sure
          Indiana                         Never               Never              Never                Never                 No
          Ohio                            Never               Never              Never                Never                 Yes
          Wisconsin                       Never               Never              Never                Never                 No
  6       Louisiana                       2004                2004               2004                 2004                  Yes
          New Mexico                     Not Sure            Not Sure           Not Sure             Not Sure               No
          Texas                           2005              1997 (late)         Not Sure             Not Sure               Yes
  7       Missouri                        2004                2004               2004                 2004                  Yes
  8       Colorado                       Not Sure            Not Sure           Not Sure             Not Sure               Yes
          Utah                          2003 (late)          Not Sure           Not Sure             Not Sure               Yes
  9       Arizona                        Not Sure            Not Sure           Not Sure             Not Sure               Yes
          California                      Never               Never              Never                Never                 Yes
          Nevada                          2004                2004               2004                 2004                  Yes
  10      Alaska                         Not Sure            Not Sure           Not Sure             Not Sure               No
          Idaho                          Not sure            Not sure           Not Sure             Not Sure               No
          Oregon                          2005                2004               Never                Never                 No
          Washington                     Not Sure            Not sure           Not sure             Not Sure               No
  a
   As shown in Appendix I, we asked EPA regions whether States submitted any additional reports, including any biennial program
  evaluations, as required by Title 40, Code of Federal Regulations, Part 51.353.

  Source: OIG analysis based on responses by EPA regions to OIG survey.




                                                                53

                                                                                                  Appendix H
                        Regional Audits and Evaluations of
                        34 Vehicle I/M Programs, 1999-2005
 EPA                               Regional Audits/         Other Oversight Efforts Identified by EPA Regions
Region          State             Evaluations (Year)                    in Responses to OIG Survey
  1      Connecticut                      No            Reviewed submitted reports; follow up on abnormalities in
                                                        reports; followed up on reported complaints.
         Maine                           No             Same as above.
         Massachusetts                   No             Same as above.
         New Hampshire                   No             Same as above.
         Rhode Island                    No             Same as above.
         Vermont                         No             Same as above.
  2      New Jersey                   Yes/2004          Reviewed/assessed accuracy of State's own April 2001
                                                        enhanced I/M program evaluation; approved Sep. 11, 2001.
         New York (Metro)             Yes/2004          Reviewed and assessed accuracy of State's own enhanced
         New York (Upstate)           Yes/2004          I/M program evaluation; approved May 7, 2001.
  3      Delaware                        No             Reviewed and noted incomplete portions of received
                                                        reports, and missing reports, internally.
         District of Columbia            No             Information visit in 1999 and 2002. Reviewed and noted
                                                        incomplete portions of received reports, and missing reports,
                                                        internally.
         Maryland                       No              Reviewed reports received.
         Pennsylvania                   No              Reviewed reports received.
         Virginia                       No              Reviewed reports received.
  4      Georgia                Yes/1999, 2000, 2002    Reviewed annual reports.
         Kentucky                       No              Same as above.
         North Carolina              Yes/1999           Same as above.
         Tennessee                   Yes/2001           Same as above.
  5      Illinois                       No              Focused on assisting State with implementation issues.
         Indiana                        No              Same as above.
         Ohio                           No              Same as above.
         Wisconsin                      No              Same as above.
  6      Louisiana                   Yes/2004           Informally reviewed submitted reports.
         New Mexico                      No             Same as above.
         Texas                           No             Same as above.
  7      Missouri                     Yes/2004          Reviewed weekly updates, annual reports and biennial
                                                        reports.
  8      Colorado                      Not Sure         Reviewed submitted reports.
         Utah                          Not Sure         Same as above.
  9      Arizona                  Yes/2001 and 2002     Reviewed completeness and accuracy of State I/M data for
                                                        SIP revision for Arizona I/M program, Jan. 2003.
         California                      No             Focused on helping State develop approvable SIP and kept
                                                        informed of activities of other organizations that monitor the
                                                        State I/M programs in this Region, especially in California.
         Nevada                   Yes/2002 and 2003     Reviewed completeness and accuracy of State I/M data for
                                                        SIP revision for Clark County I/M program, Sep. 2004.
  10     Alaska                          No             Responded to inquiries.
         Idaho                           No             Same as above.
         Oregon                          No             Same as above.
         Washington                      No             Same as above.
Source: OIG analysis based on responses provided by EPA regions to OIG survey.




                                                       54
                                                                                                            Appendix I
                               Key Evaluation Questions
Below are the oversight questions asked in the OIG survey of all 10 EPA Regions for this
evaluation:

State Vehicle I/M Background:
       Year I/M Program Began:
       Basic program: 

       Enhanced program: 

       If applicable, please specify by geographic area of State.


       Program Type: 

       (Please check all that apply)

            -         Centralized -             Decentralized
            -         Basic       -             Low Enhanced
            -         High Enhanced-            Others (Please Specify)

       Testing Type: 

       (Please check all that apply)

            -        ASM             -          IM 240
            -        Idle Testing -             OBD
            -        Gas Cap         -          Others (Please Specify)

            For each testing type identified, please specify the models years covered. 


       Testing Frequency:
            -         Once per year (Annually)
            -         Once every two years (Biennially)
            -         Other (Please Specify)

       Enforcement Type: 

       (Please check all that apply)

            -         Registration Denial        -          Computer Matching
            -         Sticker Based              -          Other (Please Specify)

            Please list by geographic area if it varies in the State. 



State Vehicle I/M Reporting:

       Please specify the most recent year this State has submitted the following reports to the Region as required
       by the 40 CFR 51.366.

                   Report Title                                      Year                  (Please check one if necessary)
        Test Data Report                                                                        Never           Not Sure
        Quality Assurance report                                                                Never           Not Sure
        Quality Control report                                                                  Never           Not Sure
        Enforcement Report                                                                      Never           Not Sure

       From 1999 to present, has this State submitted any reports in addition to those listed above, including any
       biennial program evaluations, as required by 40 CFR 51.353?



                                                              55
Audits and Evaluations of State I/M Programs:
     Has this State performed any covert audits from 1999 to 2005?

         1999            2000            2001           2002            2003            2004            2005
        Yes             Yes             Yes            Yes             Yes             Yes             Yes
        No              No              No             No              No              No              No
        Not Sure        Not Sure        Not Sure       Not Sure        Not Sure        Not Sure        Not Sure

     Has this State performed any overt audits from 1999 to 2005?

         1999            2000           2001            2002           2003            2004           2005
        Yes             Yes            Yes             Yes            Yes             Yes            Yes
        No              No             No              No             No              No             No
        Not Sure        Not Sure       Not Sure        Not Sure       Not Sure        Not Sure       Not Sure

     Has the Region performed any audits or evaluations of this State’s Vehicle I/M program since 1999?
         -	 Has been audited and/or evaluated (If so, please tell us which years (1999-2005))
         -	 Never (If not, please briefly describe any reason(s) why this State has not been audited and/or
            evaluated)
         -	 Not Sure

Region Level Information:
     Please specify the number of FTEs designated to the Region's I/M program in each of the following years. 

     FTE's 1999: 

     FTE's 2000: 

     FTE's 2001: 

     FTE's 2002: 

     FTE's 2003: 

     FTE's 2004: 

     FTE's 2005: 

     Additional Comments on allocation of FTE's:


     Please describe any ways in which the Region assesses the completeness and/or accuracy of State I/M data. 





                                                     56

                                                                                   Appendix J

                  Agency Response to Draft Report

                                         AUG 14, 2006


MEMORANDUM

SUBJECT:      Comments on OIG’s AEPA=s Oversight of the Vehicle Inspection and
              Maintenance Program Needs Improvement@

FROM:         William L. Wehrum
              Acting Assistant Administrator
              Office of Air and Radiation

TO:           J. Rick Beusse
              Director for Program Evaluations, Air Issues

       I am writing to provide you with the Office of Air and Radiation’s comments on the draft
Inspector General Report, AEPA=s Oversight of the Vehicle Inspection and Maintenance Program
Needs Improvement@ (No. 2005-0-00272, July 13, 2006). Thank you for the opportunity to
review and comment on this report.

        As a general matter, OIG’s findings do not contradict this office’s experiences with
regard to the vehicle inspection and maintenance (I/M) program. Therefore, the attached
response focuses on the draft report’s several recommendations for improving EPA’s oversight
of I/M programs. With very few exceptions, we concur with these recommendations. I am also
encouraged to see that many of these recommendations are in keeping with commitments the
Agency has already made as part of a recent summit on I/M program issues which was attended
by our Office of Transportation and Air Quality (OTAQ) and representatives from over 25 I/M
States. And lastly, I am pleased to see OIG affirm the evolving, but continued importance of I/M
programs as a means by which state and local agencies attain and maintain their air quality goals
and protect public health. Not only have these programs helped to clean the air by finding and
fixing vehicles in need of repair, they have also shown the public how to be more conscientious
in the maintenance of their vehicles, and spurred vehicle manufacturers to produce more durable
vehicles that stay cleaner, longer.

        I trust the attached comments will be helpful in completing your work on this report.
Please feel free to contact me or Leila Cook at (734) 214-4820 if you have any questions about
our comments or if we can provide additional information. If you have questions regarding
comments specifically related to Region 3 and/or its States, please contact Judith M. Katz,
Region 3 Air Protection Division Director at (215) 814-2654.

Attachment


                                               57

                          Comments on Draft Evaluation Report:
  EPA=s Oversight of the Vehicle Inspection and Maintenance Program Needs Improvement
                              (Assignment No. 2005-0-00272)


Recommendations – Chapter 2
We recommend that the Assistant Administrator for Air and Radiation work with EPA Region 3
to:

2-1    Ensure that the District of Columbia I/M program (a) restores IM240 testing as required
       by its SIP; and (b) continue to work with the District to ensure it repairs its data issues
       and provides accurate and reliable reporting in the future.
                                                                                See Appendix K
                                                                                Note 1

Response: 	Concur. EPA Region 3 is actively monitoring the District's progress in restoring
           IM240 as a required testing element, and anticipates full compliance with the SIP-
           approved testing, including a restoration to IM240 testing by no later than March
           2007. The Region is also working with the District to correct data reporting issues
           from years past, and anticipates full compliance with data reporting elements under
           40 CFR 51.366 for CY 2005, and beyond.

2-2	   Require that the Maryland I/M program (a) achieve the waiver rate in its approved SIP,
       or require Maryland to adjust its SIP and related emissions credits to reflect their actual
       waiver rate; and (b) adjust its waiver limit for inflation as required by the Clean Air Act
       Amendments of 1990, Section 182 (3)(C)(iii), or seek legal variance from EPA to adjust
       its SIP and related emissions credits to reflect the loss in emissions credits from the non
       inflationary adjusted waiver limit.

                                                                                 See Appendix K
                                                                                 Note 2

Response: With regard to recommendation (a), we concur. EPA Region 3 and Maryland are
          working together to address the waiver amount and rate issues with regard to the
          approved I/M program. Based upon recent discussion with MDE, Region 3 believes
          the State is actively modeling the actual waiver rate, and adjusting its related emission
          credits accordingly, for use in planning future SIP revisions including those to attain
          the 8-hour ozone standard. While the waiver rate adjustment does negatively impact
          the level of emission reductions available from the I/M program, Maryland is
          working to develop attainment planning SIP revisions and conformity analyses that
          demonstrate improved air quality, despite the effects of modeling this change in
          waiver rate. EPA Region 3 and MDE are also anticipating a review of the current
          I/M program design when contract renewal for the I/M program comes due in 2009.
          Due to the substantial investments and technical analyses that will be made at that
          time, it is anticipated that a review of the waiver amount will coincide with a review
          of other important program parameters such as test type and network design.


                                                58

           With regard to recommendation (b), we concur, with comments. Although the Clean
           Air Act is unambiguous with regard to the minimum dollar amount that must be spent
           prior to being granted a waiver in an enhanced I/M program – and we will work with
           Region 3 and Maryland to revise the waiver amount – the environmental benefit of
           raising the waiver limit as recommended here is not at all clear. In its work with I/M
           programs, EPA has never been able to draw a correlation between the dollar limit set
           by a State and the resultant waiver rate. Within this context it is important to note
           that waivers themselves are rapidly becoming a thing of the past as the in-use fleet
           turns over to OBD-equipped vehicles. Unlike repairs suggested by tailpipe test
           failures, OBD diagnoses the specific cause of the failure – and these repairs are
           generally all-or-nothing. Put another way, it is not possible (or at least not practical)
           to perform half a transmission repair with an eye toward just meeting some pre-set
           dollar limit. For this reason, EPA’s implementation guidance on OBD testing
           recommends that States improve upon the $450+CPI adjusted waiver by not allowing
           waivers of OBD-equipped vehicles at all.


We recommend that the Assistant Administrator for Air and Radiation work with EPA regions
and States, or with appropriate organizations such as STAPPA/ALAPCO, the Environmental
Council of States, or the National Conference of State Legislatures, to:

2-3 	   (a) Develop VIN-based vehicle databases for vehicles failing I/M tests with no known
        final outcome, (b) establish reciprocity agreements allowing the sharing of such data
        among and between I/M programs, and (c) ensure that I/M programs that can
        demonstrate that such vehicles have been sold outside of a nonattainment area (or
        scrapped) receive appropriate emissions reductions credits.
                                                                                    See Appendix K
                                                                                    Note 3

Response: 	We do not concur. We lack the legal authority and resources to act on this
           recommendation. While this recommendation may be a logical response to the
           difficulties encountered in reconciling I/M reporting data on “vehicles with no known
           final outcome” – and we certainly encourage the States to share this information to
           the extent possible – we also acknowledge that there may be significant obstacles to
           developing such multi-state databases. Many States store vehicle testing information
           and vehicle registration information in separate databases, and the format of those
           databases can vary radically from State to State. In some cases, the relevant
           information is available only as a paper record, while in other cases; the database
           software is proprietary and not readily adaptable for communication with other
           packages and formats. Another consideration is the fact that States are currently
           required to comply with the Real ID Act of 2005, meeting national standards by 2008
           for state-issued driver licenses and non-driver ID cards as well as linking of license
           and ID card databases. While this might seem like an opportunity for state motor
           vehicle departments to develop the VIN-based databases recommended, it’s equally
           likely that such an effort would be viewed as a hindrance competing for resources
           earmarked for Real ID Act compliance. Additionally, there may be privacy and other


                                                59

           issues to resolve which should be thoroughly weighed before committing to such a
           project. As an alternative, we recommend requiring that States follow up on
           disappearing vehicles to the best of their abilities, and to a degree proportional to the
           problem. For example, a State using remote sensing to identify exceptionally clean or
           dirty vehicles could impose significant fines on registered vehicles with no known
           final outcome that are photographed operating in the program area. Lastly, with
           regard to part (c) of this recommendation, there is nothing in the Clean Air Act or the
           I/M rule that prevents States from taking SIP credit for those initially failing vehicles
           they can prove are no longer operating in the I/M program area. Even if an I/M
           program does not have the resources to track these vehicles down for the purpose of
           adjusting SIP credit, however, the benefits associated with initially failing vehicles no
           longer operating in the program area will be seen at the air quality monitors.

Recommendations – Chapter 3
We recommend that the Assistant Administrator for Air and Radiation work with EPA regions to:

3-1 	   Ensure that all State vehicle I/M program requirements are met, including the key
        reporting required by Title 40, Code of Federal Regulations, Part 51.366.
                                                                                      See Appendix K
                                                                                      Note 4

Response: Concur with comment. EPA believes that its ability to assess the success of an I/M
          program begins with our having available the program statistics and other information
          required under 40 CFR 51.366. In addition, States should be allowed maximum
          possible flexibility to provide the required information in whatever format is most
          convenient, in compliance with OMB recommendations for reducing the respondent
          burden associated with mandatory data collections. For example, if the State is
          required by its legislature to provide regular reports of I/M program statistics (and
          these reports contain the data required under the 40 CFR 51.366) the State should be
          allowed to submit those reports in lieu of extracting the information to create a
          separate report to EPA.


3-2 	   Evaluate vehicle I/M reports and other available information to determine whether the
        programs are operating effectively, including demonstrating that they achieved the
        emissions reductions committed to in SIPs.                                    See Appendix K
                                                                                         Note 5

Response: Concur, with comment. To the extent that complying with this recommendation (and
          others) would require a significant increase in the resource levels associated with I/M
          implementation and oversight, we must make note of the declining significance of
          I/M programs in the overall context of State attainment demonstrations due in 2007
          for the 8-hour ozone NAAQS and the need for both States and EPA to use more
          resources implementing and overseeing additional control measures. Thus, this puts
          more pressure on the limited resources available to both EPA headquarters and



                                                60

           Regions for oversight of all control measures. It should also be noted, specifically,
           that the predicted emission reductions attributable to I/M programs in EPA’s
           MOBILE6 mobile source emissions factor model have decreased significantly (e.g.,
           from 40-60%) from when most currently operating programs were originally
           designed, reflecting advances in clean vehicle technology and increased fleet
           turnover, as motorists buy newer, cleaner vehicles. While we readily agree that
           remaining reductions obtained by I/M programs are significant and needed to meet or
           maintain air quality goals in many areas, that significance is declining over time. In
           addition, areas vary fairly widely in the impact I/M programs can have in an area due
           to many factors including fleet composition and age. For instance, by 2015, the
           emission reductions associated with I/M for Phoenix represent less than 1% of the
           projected emissions inventory in both the CO and 1-hour ozone maintenance plans.
           Of course, not all areas will see this kind of drop off in I/M credit, but the trend
           toward less over time for all I/M program areas will continue. As a result, many areas
           are looking for other, more productive sources of emission reductions. For example,
           in its attempts to find an I/M alternative for older (and higher-emitting) vehicles,
           California, which may have a larger share of such vehicles than many other states, is
           developing incentives to get older vehicles off the road entirely through accelerated
           vehicle retirement programs.

3-3 	   Determine whether vehicle I/M programs are using appropriate tests, collecting reliable
        data, and meeting waiver rates committed to in SIPs.                         See Appendix K
                                                                                        Note 6
Response: Concur, with comment. As part of its work to develop its next-generation mobile
          source emission factor model – also known as MOVES – OTAQ has collected and
          reviewed a substantial number of test records from several I/M programs and has
          found the data reliable enough to be used in developing the emission rates in the
          MOVES model.

3-4 	   Follow up with States on significant issues identified during regional analysis of State
        reporting and work with these States to correct these issues, as needed.        See Appendix K
                                                                                        Note 7
Response: Concur, with comment. Most Regions meet with their States regularly
          to discuss operational and SIP issues. These meetings can provide an alternative
          avenue to raising and addressing concerns without resorting to the more formal route
          of performing a program evaluation or data analysis.


3-5 	   Use the mechanisms provided under the Clean Air Act to ensure achievement of State
        vehicle I/M program SIP commitments, or require States unable to do so to revise their
        SIP commitments to reflect the actual I/M emission reductions achieved.

                                                                                        See Appendix K
Response: Concur, with edit. As an alternative to the current phrasing, we              Note 8
          suggest: “Use the mechanisms provided under the Clean Air Act to ensure
          achievement of State vehicle I/M program SIP commitments, or require States unable



                                                61

             to do so to revise their SIP commitments to reflect their actual I/M program
             operations.” We’re recommending this edit because, strictly speaking, SIPs are based
             on projected emission reductions. Actual emission reductions are determined under a
             separate process and submission – the program evaluation report.


We also recommend that the Assistant Administrator for Air and Radiation work with OTAQ to:

3-6 	   Provide technical leadership and guidance to States and regional offices to address OBD
        implementation issues, including: updating OBD I/M implementation auditing/
        evaluation guidance; establishing on a trial basis an OBD technical workgroup to help
        I/M programs resolve OBD I/M issues; and providing updated OBD I/M implementation
        training.                                                                 See Appendix K
                                                                                                 Note 9




Response: Concur, in part. On May 16, 2006 – prior to receiving the IG’s draft July 13th
          recommendations for official response – OTAQ co-sponsored an “I/M Summit” with
          members of the State and Territorial Air Pollution Program Administrators/
          Association of Local Air Pollution Control Officials (STAPPA/ ALAPCO) to discuss
          many of the State concerns referenced by the IG’s draft report. In follow-up to that
          meeting, on June 30, 2006, OTAQ Director Margo T. Oge wrote to STAPPA/
          ALAPCO representatives, affirming support for State I/M programs as well as EPA’s
          commitment to establish a FACA workgroup on “bridging” I/M programs to the
          future. That letter was followed on July 21, 2006 by a more detailed letter from the
          director of OTAQ’s Transportation and Regional Programs Division, Merrylin Zaw-
          Mon, listing numerous action items OTAQ had agreed to pursue in support of I/M,
          including several which are directly responsive to the IG’s recommendations.
          (Copies of both letters are attached to this response.) Among other commitments,
          OTAQ agreed to:

              •	 Continue to facilitate bimonthly conference calls of I/M states to discuss technical
                 issues arising from the implementation of local I/M programs, with a specific
                 emphasis on sharing solutions to technical challenges that have arisen in more
                 than one state

              •	 Update Appendix D25 of the Onboard Diagnostics (OBD) Implementation
                 Guidance

              •	 Share information with the states regarding technical service bulletins, recalls, and
                 other relevant enforcement actions with a direct bearing on I/M program
                 implementation, as appropriate

25
  Appendix D includes a list of vehicle makes, models, and model years exhibiting test difficulties with regard to
establishing readiness for some monitors. The Appendix identifies the vehicle, describes the nature of the problem,
and the corrective action to be taken to complete the test process.


                                                        62

             •	 Review suspected OBD defeat devices and refer to OECA for possible
                enforcement

           With regard to the training recommendation, we do not concur. Several private
           vendors exist who can provide high quality training for States needing it. In prior
           years, OTAQ had paid for several training sessions but the market has taken over that
           function. OTAQ believes that States needing training should contact private vendors
           for that service.



Findings

As a general matter, the IG’s findings do not contradict our experiences with regard to the I/M
program. However, given that many of the findings are based upon analysis of data and survey
results that we do not have access to, it is difficult to concur or not concur with the many of the
explicit counts and percentages presented here. That said, with the few questions, comments and
requested clarifications below, we have no reason to doubt the accuracy of the IG’s analysis.


General comments and/or clarifications

p. 1: The report cites an American Lung Association report which claims that approximately
half of total manmade air pollution comes from mobile sources. Typically, the mobile source
inventory includes not just cars and light trucks, but also planes, trains, heavy-duty trucks, and
non-road engines, like construction equipment and generators. The more illustrative statistic
would be the amount of manmade pollution that comes from cars and light-
duty trucks typically subject to inspection and maintenance (I/M) testing?           See Appendix K
                                                                                    Note 10
p. 3: “According to EPA, major malfunctions can cause emissions to skyrocket…” This claim
should be tied to a specific document citation.                              See Appendix K
                                                                                   Note 11

p. 3: The various reduction figures attributed to Maryland and Virginia on this page need to be
further explained. Are these percentages derived from modeling? Or maybe before and after
emission scores recorded by the programs(s)? If the percentages are based on modeling, which
model was used? MOBILE5? MOBILE6? If the figures are based on before and after emission
scores, were the scores in measured grams-per-mile, calculated grams-per-mile, parts-per
million, or percent? How were the OBD and/or gas cap test results accounted for? Also, how
was the tailpipe test score data quality controlled?
                                                                                   See Appendix K
                                                                                   Note 12

p. 4, footnote 6: The last statement regarding the impact of the 8-hour ozone standard and anti-
backsliding requirements on existing 1-hour programs should be modified to address the I/M



                                                 63
rule’s redesignation exception for basic I/M programs which is discussed in the May 12, 2004
memo signed by Tom Helms, Ozone Policy and Strategies Group, and Leila Cook, State
Measures and Conformity Group, entitled “1-Hour Ozone Maintenance Plans Containing Basic
I/M Programs,” a copy of which is attached to these comments.
                                                                                  See Appendix K
                                                                                  Note 13

p. 4: The last bullet regarding basic I/M program requirements should be revised to clarify that
while basic I/M programs are required to perform OBD testing on OBD-equipped vehicles, for
performance standard purposes, it is the idle test alone (on MY 1968 and newer vehicles) that
establishes the credit level that must be met for basic I/M programs required under the 1-hour
ozone standard.
                                                                                  See Appendix K
                                                                                  Note 14

p. 8: The report claims that disappearing vehicles emit “excessive amounts of pollution,” but
provides no estimate of what this “excessive” amount is. Furthermore, on page 33 of the report
the authors indicate that they are unable to quantify this number given the lack of reliable
mileage data. The report also states that areas with significant numbers of disappearing vehicles
meet their clean air goals. Given these facts, a more conditional line seems warranted, perhaps
something like, “Depending upon their ultimate disposition and quantity, disappearing vehicles
may undermine an area’s ability to achieve their clean air goals.”
                                                                                  See Appendix K
                                                                                  Note 15

p. 10: The report indicates that DC has promised to include 2005 data on disappearing vehicles
in a report scheduled to be submitted by July 2006. Will the authors follow up on this claim
prior to finalizing the audit report? Is any additional analysis anticipated, should such a report be
submitted prior to the audit report being finalized? Is it possible that the final report may be
delayed and/or include text and/or conclusions that EPA has not had an opportunity to comment
on?
                                                                                  See Appendix K
                                                                                  Note 16

p. 19-20: The sentence beginning “During 2003, the District’s...” is a little confusing regarding
its discussion of DC’s advisory only OBD testing. It’s unclear (for example) what is meant by
the claim that a vehicle that fails the OBD test were to “go through IM240 protocol without any
adverse implications.” Perhaps a better way to phrase the sentence would be to say that if a
vehicle fails the OBD test, it is diverted to the IM240, which is then used as the basis for making
a pass/fail determination.
                                                                                  See Appendix K
                                                                                  Note 17

p. 21, paragraph 3: The report cites Virginia DEQ as performing a bi-annual gas audit of test
analyzers in lieu of conducting covert audits with the vehicles set to fail, implying that the point
of covert audits is to ensure that test analyzers are accurate. In fact, ensuring analyzer accuracy



                                                 64
through an independent gas audit is one of the things that is required as part of the overt audit;
the covert audit is intended to identify potential inspector fraud. Lastly, concerning guidance on
how to set an OBD-equipped vehicle to fail, one method would be to install a defective oxygen
sensor and unscrewing the MIL bulb to fail the bulb check portion of the test. These methods are
commonly employed in other programs.
                                                                               See Appendix K
                                                                               Note 18

p. 28, first paragraph after bullets: The Virginia official who indicated that the program
evaluation requirements assumed IM240 testing is citing old information. The I/M rule and
EPA’s guidance on program evaluation was revised several years ago to account for areas that do
not use IM240 testing (although it is true that that revised guidance does not address what to do
with regard to OBD-equipped vehicles).
                                                                               See Appendix K
                                                                               Note 19

p. 28, second paragraph after bullets: The discussion of bi-monthly calls. Those calls are for
State program people only. Tool and vehicle manufacturers are specifically not invited so the
State participants can speak freely among regulators.
                                                                               See Appendix K
                                                                               Note 20




                                               65

                                                                                 Appendix K

            OIG Evaluation of Agency Response
Note 1-	   We agree with the Agency’s planned actions.

Note 2-	   We agree with the Agency’s planned actions.

Note 3-    We have revised Recommendation 2-3 based on the Agency’s comment that it
           lacks the statutory authority to implement the recommendation as written,
           including deleting part 2-3(c). We continue to believe that it is important for the
           Agency to encourage States with a significant number of vehicles with no known
           final outcome to follow up on these vehicles and for the Agency to encourage
           other States to assist in this effort, as appropriate.

Note 4-	   We agree that EPA’s ability to assess the success of an I/M program begins with
           having available the program statistics and other information required under Title
           40, Code of Federal Regulations, Part 51.366. We also agree that EPA can allow
           flexibility in how States provide the required information as long as the necessary
           information required in Title 40, Code of Federal Regulations, Part 51.366 is met
           and the reports are submitted to the regions in a timely manner.

Note 5-	   We understand that the significance of the I/M program is declining, and that
           resources in headquarters and the regions are limited. However, we believe that
           there is still a need to evaluate the vehicle I/M reports to determine if the
           programs are operating effectively. As stated in the Agency response, the
           remaining reductions obtained are still significant and are needed to meet or
           maintain air quality goals in many areas. We believe that obtaining and reviewing
           the information mentioned in Recommendation 3-1 is the most cost effective
           method to ensure that I/M programs are operating effectively.

Note 6-    We are encouraged that the Agency has obtained and reviewed test data and
           found it reliable enough for developing emission rates for modeling.

Note 7-	   We agree with the Agency’s proposed method for followup with States.

Note 8-    We agree and have modified the recommendation to state “projected” emissions
           reductions.

Note 9-    We agree and are encouraged that the Agency and the States are proactively
           working together to address issues with the I/M program. We are also encouraged
           by the recent commitments made by OTAQ. We have added information in
           Chapter 3 related to the May 2006 “I/M Summit” and June and July 2006
           followup letters from OTAQ to STAPPA/ALAPCO. We have also modified the
           recommendation based on these commitments. We deleted the reference to the
           Agency providing training from the recommendation. We believe that the


                                            66

            commitments made by the Agency when fully implemented will significantly
            enhance the I/M program.

Note 10-	   We revised the first paragraph on page 1 of the report to include only emissions
            from on-road mobile sources.

Note 11-	   We modified the sentence for clarity. The source for the sentence was EPA
            Region 3’s I/M Website.

Note 12-    According to VA DEQ, these numbers are from their SIP and are based on
            modeling. VA DEQ used EPA Mobile5 for the 1999 SIP and Mobile6 for the
            2006 projections. The numbers are not based on actual emissions results.
            According to MDE, their numbers are also based on modeling estimates using
            EPA’s Mobile 5b and Mobile6 models.

Note 13-	   We added information from EPA/OTAQ’s May 12, 2004 memorandum entitled
            "1-Hour Ozone Maintenance Plans Containing Basic I/M Programs," to footnote
            #6 (now footnote #10).

Note 14-	   Agree. We added information to clarify the performance standard requirements
            for basic I/M programs.

Note 15-	   We revised the sentence based on the comment.

Note 16-	   The District of Columbia provided 2004 and 2005 reports to Region 3 on August 3,
            2006. The District also provided copies of these reports to the OIG in response to
            our draft report. We updated the final report by filling in the information in
            applicable charts based on the 2004 report and noted in the report that the 2005
            report does contain information related to vehicles with no known final outcome.
            However, we did not review the reports in detail, since the District submitted these
            reports after the end of our field work. We also did not make substantial changes to
            the report based on receipt of these reports. EPA Region 3 should review these
            reports in detail, as part of the Agency’s response to Recommendation 2-1.

Note 17-	   We made revisions to clarify the statement.

Note 18-	   EPA and the States we reviewed held differing views regarding the feasibility of
            meeting the covert audit requirements using OTAQ’s suggested approach.
            Because of these differing views, we believe the issue of how to meet the covert
            audit requirements should be resolved using the mechanisms discussed in our
            Recommendation 3-6.

Note 19-	   We deleted the sentence as this guidance had been superseded, according to OTAQ.

Note 20-	   We deleted from the sentence the reference to vehicle manufacturers, tool
            manufacturers, and consultants.



                                            67

                                                                                    Appendix L

      Summary and OIG Analysis of Responses from the 

   District of Columbia, Maryland, and Virginia I/M Programs 


District of Columbia

We provided the Air Quality Division of the District of Columbia’s Department of Health with
detailed finding outlines prior to issuance of our draft report for comment, and we held
conference calls with them to discuss these detailed finding outlines. We incorporated their
comments into the draft report. Subsequently, we provided the District of Columbia with a
redacted version of the draft report for further comments, and later we also provided them with
the full draft report for comment prior to issuance of our final report. We resolved any issues
prior to issuance of the draft report; as a result, the District did not provide further detailed
comments to the draft report. In response to the redacted version of the draft report the District
responded, “We have reviewed the redacted version of the OIG's evaluation report dated 7/17/06.
Thank you for your attentiveness to our responses regarding issues pertinent to the D.C. IM
Program.” Also, in response to our draft report, the District provided us with copies of its 2004
and 2005 I/M reports that it provided to Region 3 subsequent to issuance of our draft report. We
revised the report to reflect this subsequent information.

Maryland

We provided MDE with detailed finding outlines prior to issuance of our draft report for
comment, and we held conference calls with them to discuss these detailed finding outlines. We
incorporated their comments into the draft report. Subsequently, we provided MDE and the
Maryland Motor Vehicle Administration with a redacted version of the draft report for any
further comments, and later we also provided MDE with the full draft report for comment prior
to issuance of our final report. Maryland made several comments related to the draft report and
we made changes to the report, as appropriate. The more significant comments are discussed
below along with OIG responses.

Comment: Regarding the information in our report related to vehicles with “no known final
outcome” (such as appears in Table 2-1), Maryland commented that it is important to explain
that the numbers reported are for a defined timeframe. Maryland further commented that the
timeframes need to be included; otherwise, readers may have the impression that these vehicles
were "lost" forever, which is not the case. Maryland also responded that readers must understand
that Maryland does closely track and follow up on these vehicles continuously, and that looking
at a longer timeframe would result in lower numbers of vehicles with no final outcome.

OIG Response to Comment: The numbers presented in Chapter 2 under “Significant
Percentages of Vehicles with No Known Final Outcome” are based on the information that States
reported to EPA Region 3 in their annual reports. We agree that the numbers are for a given
timeframe and that more vehicles may be resolved given a longer time period. However, as is
the case with Maryland, this timeframe can be more than 1 year. Using a timeframe of longer


                                               68

than 1 year is possible because the reports are due by July of the each year (6 months after the
end of the year reported on). Further, we used longer periods of time in our analysis of data for
Maryland (January 2003 though April 2005). We continue to believe that EPA’s requirement to
report the number of vehicles with no known final outcome is important because this number and
corresponding percentage can be an indicator of whether vehicles identified as failing an
emissions test are repaired timely. It is also important to clarify that our analysis was to
determine whether initially failing vehicles were resolved (i.e., whether the vehicle passed a
subsequent inspection, was granted a waiver, had its tags turned in, was no longer in the I/M
area, or was exempted). This is different than whether or not the vehicles are tracked.

Comment: Maryland responded to the 13,655 vehicles shown in Table 2-2 and Table E-1. It
commented that:

       . . . the OIG does not seem to accept Maryland's explanation of 13,655 vehicles in the
       category for "Vehicles With No Result (have not passed retest nor received a waiver), But
       Are Not on the Current No-Show List." When the OIG asked for a breakdown of these
       vehicles, Maryland explained that all 13,655 vehicles in this category were checked
       manually over time during the normal course of operations and removed from the
       No-Show list for a valid reason. To recreate this information for the OIG, we would have
       to go back and manually look up each vehicle a second time, which would be a
       substantial amount of time and work. We provided a sample of 20 vehicles to
       demonstrate how it was done, but did not think it was reasonable to do it for 13,635
       additional vehicles. This needs to be clarified here, so that readers are not given the
       impression that we do not know what happened to the 13,635 remaining vehicles. The key
       point here is that Maryland demonstrated the ability to do this, and that these vehicles
       were indeed tracked and accounted for. As a result, our analysis showed approximately
       4,500 vehicles that ultimately could not be accounted for.

OIG Response to Comment: We added information in Chapter 2 related to Maryland describing
the issue as a documentation issue. We included the 13,655 vehicles in Table 2-2 because, based
on our analysis, the data provided did not contain a corresponding resolution. We agree that it is
possible that many of these vehicles may be resolved; however, Maryland did not provide
documentation of a satisfactory resolution for these vehicles. One issue we believe needs
clarification is that Maryland’s response addressed what it said can be “accounted for”; however,
we sought to determine whether the initially failing vehicles were clearly resolved during the
timeframes of the data provided. As noted in Appendix E, we reviewed 20 vehicle records
manually extracted by Maryland. We found that 8 of the 20 vehicles, or 40 percent of the
vehicles that Maryland provided as examples for the limited manual test, were not clearly
resolved. Also, as discussed in Appendix E, 7 other vehicles were not resolved in a timely
manner. We acknowledged in Appendix E that, for this category, as well as for other categories,
these vehicles may no longer be driven in the area or may be retired, but this could not be
ascertained from the category descriptions provided.

Comment: Maryland also made comments related to ensuring that their enforcement program
was understood in perspective. Maryland noted that even when vehicle tags are suspended, the
owner might still drive the vehicle in the area. However, Maryland is concerned that the report



                                                69

may give readers the impression that vehicles being driven illegally on suspended
tags/registrations is a problem unique to, and caused by, I/M programs. Maryland commented
that this problem is far broader than any I/M program, e.g., “people driving with stolen/forged
tags, suspensions due to insurance violations or traffic violations.” Maryland also noted that its
procedures must be taken and presented in this broader context. Maryland also commented that:

       The OIG concludes in the paragraph above that " …. in theory a failing vehicle could be
       sold multiple times before being required to be retested." (second paragraph below Table
       2-2). While we acknowledge that this is, in theory, possible, we do not believe that this
       occurs to any significant degree in Maryland, or in other I/M programs.

OIG Response to Comment: We added additional information in the report related to these
comments. We agree that these problems are not unique to Maryland or to its I/M program and
that this may be a broader issue than I/M programs. Our report focuses only on I/M programs.

Comment: Maryland commented that it appears that Maryland is being singled out and
penalized for maintaining in-depth program data, while other jurisdictions that did not meet the
EPA requirements for data submittal are not evaluated negatively.

OIG Response to Comment: Chapter 3 provides information related to our survey of all EPA
regions and whether other I/M programs met EPA’s minimum reporting requirements. However,
due to time constraints and the lack of data for the District of Columbia I/M program, we only
reviewed the I/M programs in two States in detail. The OIG’s intent was not to require that one
I/M program do more than others. Our recommendations in Chapter 3 are national in scope and
are designed to ensure that other I/M programs meet the minimum reporting requirements and
that EPA take action when significant issues are identified.

Maryland made other clarification comments and suggestions for Chapters 1 and 2, and the
appendices. We made changes based on these comments, as appropriate.

Subsequent to its initial response to our draft report, Maryland provided additional comments as
well as more information regarding the importance of its I/M program and the challenges that the
State has encountered, including information on the challenges of balancing the goal of
maximizing environmental benefits with consumer acceptance of the program.

OIG Response to Comment: We added information based on Maryland’s comments to the report
as appropriate. However, our evaluation did not address the consumer acceptance issues noted
above, but we acknowledge that such issues may exist and we have included Maryland’s views
in the report.

Virginia

We provided VA DEQ with detailed finding outlines prior to issuance of our draft report for
comment, and we held conference calls with its personnel to discuss these detailed finding
outlines. We incorporated their comments into the draft report. Subsequently, we provided VA
DEQ with a redacted version of the draft report for further comments, and later we also provided



                                                70

them with the full draft report for comment prior to issuance of our final report. VA DEQ
provided technical comments related to the appendices. We made changes based on these
comments, as appropriate. We resolved any issues prior to issuance of the final report.

VA DEQ also provided us with an update of its nearly completed study, Resolution of 7,014
Disappeared Vehicles from VA 2004 IM Program, on October 1, 2006, and suggested that we
may want to include it as an appendix to our final report. According to VA DEQ’s study,
preliminary indications are that the status of a substantial number of the vehicles with no known
final outcome can be identified through various mechanisms. The mechanisms used by
VA DEQ in its study included: (1) a search of Virginia’s Vehicle Identification Database and
Department of Motor Vehicle data, (2) queries to the Carfax national database, (3) comparison
with Department of Motor Vehicle registration data, (4) comparison with 2005 and 2006
Virginia remote sensing data, (5) a check for subsequent emissions tests, and (6) a check on the
registration status of current VINs.

OIG Response to Comment: We appreciate Virginia’s efforts to determine the outcome of
vehicles previously categorized as those with no known final outcome; however, since the study
has not yet been finalized and we have not analyzed it, we have not included it in this report.
We encourage VA DEQ to finalize this study and share it with EPA and other States.




                                                71

                                                                            Appendix M

                                    Distribution


Office of the Administrator
Acting Assistant Administrator for Air and Radiation
Deputy Assistant Administrator for Air and Radiation
Audit Followup Coordinator, Office of Air and Radiation
Director, Office of Transportation and Air Quality
Deputy Director, Office of Transportation and Air Quality
Regional Administrators, Regions 1-10
Audit Followup Coordinators, Regions 1-10
Office of General Counsel
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                             72

